APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals for the Sixth Circuit
(August 31, 2020) ....................................................................................... App. 1
Order in the United States Court of Appeals for the Sixth Circuit
(March 27, 2019) ...................................................................................... App. 18
Memorandum Opinion in the United States District Court Northern District of
Ohio Eastern Division (October 22, 2018) .............................................. App. 24
Order in the United States Court of Appeals for the Sixth Circuit
(December 29, 2020)................................................................................. App. 89
Jury Instructions Excerpts in the United States District Court for the Northern
District of Ohio Eastern Division (March 7, 2012) ................................. App. 90
Relevant Statutory Provisions Involved ............................................................ App. 96

i

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0287p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JAMES C. DIMORA,
Petitioner-Appellant,

┐
│
│

>

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

│
│
│
│
│
┘

No. 18-4260

Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
Nos. 1:10-cr-00387-1; 1:17-cv-01288—Sara E. Lioi, District Judge.
Argued: April 16, 2020
Decided and Filed: August 31, 2020
Before: MERRITT, THAPAR, and LARSEN, Circuit Judges.
_________________
COUNSEL
ARGUED: David E. Mills, THE MILLS LAW OFFICE LLC, Cleveland, Ohio, for Appellant.
Laura McMullen Ford, UNITED STATES ATTORNEY’S OFFICE, Cleveland, Ohio, for
Appellee. ON BRIEF: David E. Mills, THE MILLS LAW OFFICE LLC, Cleveland, Ohio,
Philip S. Kushner, KUSHNER & HAMED CO., L.P.A., Cleveland, Ohio, for Appellant. Laura
McMullen Ford, UNITED STATES ATTORNEY’S OFFICE, Cleveland, Ohio, for Appellee.
The court delivered a PER CURIAM opinion. MERRITT, J. (pp. 15–17), delivered a
separate dissenting opinion.

App. 1

No. 18-4260

Dimora v. United States

Page 2

_________________
OPINION
_________________
PER CURIAM. In 2012, a federal jury convicted James Dimora of numerous briberyrelated offenses committed during his tenure on the Board of County Commissioners for
Cuyahoga County, Ohio. Four years later, in McDonnell v. United States, 136 S. Ct. 2355
(2016), the Supreme Court gave a narrow construction to a key element included within several
of those offenses. Dimora then petitioned to vacate his convictions under 28 U.S.C. § 2255,
arguing that the jury instructions used at his trial were faulty in light of McDonnell. The district
court denied relief. For the reasons that follow, we VACATE the district court’s order, DENY
Dimora’s request to expand the scope of the Certificate of Appealability, and REMAND for
further proceedings consistent with this opinion.
I.
From 1998 until 2010, Dimora served as one of three elected commissioners on the
Board of County Commissioners for Cuyahoga County. At that time, the Commissioners served
as the official head of County government; as such, they wielded significant control over the
County’s affairs.1 For example, the Commissioners had the authority to purchase or lease
property; construct County facilities; sell, lease, or rent County property; approve economic
development loans and grants; approve budgets for various departments of County government;
and enter into certain contracts on behalf of the County. See Ohio Rev. Code § 307.01 et seq.
In 2007, the FBI launched an investigation into public corruption in Cuyahoga County.
The investigation revealed that Dimora had received over $250,000 in gifts (or as the FBI and
jury would later conclude, bribes) from individuals with business before the County. These gifts
included home renovations, expensive dinners, trips to Las Vegas, and encounters with
prostitutes. At the same time, Dimora had used his position as County Commissioner to help the
gift givers in various ways. The investigation concluded that he had corruptly influenced the
1Subsequent

to Dimora’s arrest, and perhaps because of it, the people of Cuyahoga County voted to alter
the structure of their government. See United States v. Dimora, 750 F.3d 619, 623 (6th Cir. 2014). Now, the
County government is led by a council and a single executive. Id.

App. 2

No. 18-4260

Dimora v. United States

Page 3

awarding of County contracts and grants, the hiring of County employees, the results of at least
one County election, and the outcome of civil litigation in County and municipal courts.
Dimora’s “influence” on these matters ranged from casting formal votes as Commissioner to
calling, meeting, and pressuring other relevant officials.
A federal grand jury indicted Dimora on thirty-four counts in September of 2011. The
indictment charged seventeen counts of Hobbs Act conspiracy and Hobbs Act offenses under
18 U.S.C. § 1951; four counts of bribery concerning programs receiving federal funds under
18 U.S.C. §§ 666(a)(1)(B) and 2; four counts of making false statements on tax returns under
26 U.S.C. § 7206(1); two counts of conspiracy to commit mail fraud and honest services mail
fraud under 18 U.S.C. §§ 1341, 1346, and 1349; two counts of conspiracy to commit bribery
concerning programs receiving federal funds under 18 U.S.C. § 371; one count of conspiracy to
commit wire fraud and honest services wire fraud under 18 U.S.C. §§ 1343, 1346, and 1349; one
count of RICO conspiracy under 18 U.S.C. § 1962(d); one count of mail fraud under 18 U.S.C.
§ 1341; one count of conspiracy to obstruct justice under 18 U.S.C. §§ 371 and 1512; and one
count of obstructing a federal investigation under 18 U.S.C. §§ 1519 and 2. Dimora pleaded not
guilty and the case proceeded to trial.
Dimora’s trial lasted for thirty-seven days. The government’s star witness was Frank
Russo, who served as County Auditor when Dimora was Commissioner. Russo testified that he
and Dimora maintained an elaborate network of “sponsors” who financed their social activities
and provided them with gifts in exchange for “personal attention” on matters pending before the
County. These matters ranged from “a daughter getting a parking ticket” to “a son wanting a
[County] job” to “a brother . . . wanting a contract [with the County].”
The government also presented testimony from the so-called “sponsors.” For example,
Ferris Kleem—a local contractor and businessman—testified that he had provided Dimora with
dinners, jewelry, a television and refrigerator, and a trip to Las Vegas that included flights, a
hotel suite, gambling money, and an encounter with a prostitute. Kleem explained that he had
provided these gifts to stay in Dimora’s “good graces” and “gain influence [in] Cuyahoga
County.” And, according to Kleem, Dimora returned the favor: he helped Kleem obtain a
development grant from the County and win a construction bid for the County’s new Juvenile

App. 3

No. 18-4260

Page 4

Dimora v. United States

Justice Center, while also arranging for Kleem’s cousin to obtain a job with the County and
assisting Kleem’s brother with a smoking violation filed against his restaurant.
Several other sponsors testified as well. Their testimony shared a similar theme: each
had provided Dimora with substantial gifts with the hope and expectation that he would later use
his influence to help them with County business; and Dimora did, in fact, deliver on that
expectation for each of them. As one sponsor testified regarding Dimora and Russo, “they
helped me; I helped them.”
Two components of Dimora’s defense are relevant here.

First, Dimora sought to

introduce ethics reports in which he disclosed that he had received unspecified gifts valued at
more than $75 from most of the sponsors who testified. These reports, he argued, would show
that he had not acted with a corrupt intent. But, after the government objected, the district court
ruled that the reports were inadmissible. The court concluded that the reports contained “hearsay
statements by Mr. Dimora” and their admission would be “tantamount to permitting [Dimora] to
testify without being cross-examined.” Additionally, the court believed that the reports would be
“very confusing” to the jury. The ethics reports, consequently, were excluded at trial.
Second, Dimora attempted to show that any favors he provided to the sponsors were
insufficient to support a bribery conviction.2 Under the bribery statutes, the government needed
to prove that Dimora had agreed to commit an “official act” in exchange for items of value. See
18 U.S.C. § 201.3 Dimora sought to narrowly define the scope of that term. He proposed jury
instructions that, as relevant here, would have told the jury that “official acts” did not include
“merely . . . recommending or introducing a giver to other decision makers.”
2The

district court used “bribery” as a shorthand to refer to the following crimes in the
Indictment: (i) bribery concerning programs receiving federal funds, 18 U.S.C. § 666(a)(1)(B); (ii) conspiracy to
commit bribery concerning programs receiving federal funds, 18 U.S.C. § 371; (iii) Hobbs Act extortion, 18 U.S.C.
§ 1951; (iv) conspiracy to commit Hobbs Act extortion, 18 U.S.C. § 1951; (v) conspiracy to commit honest services
wire fraud; (vi) honest services mail fraud, 18 U.S.C. § 1346; and (vii) conspiracy to commit honest services mail
fraud, 18 U.S.C. § 1346. We repeat that shorthand here.
3The

Supreme Court has construed Hobbs Act extortion and honest services fraud to require proof of
bribery. See Skilling v. United States, 561 U.S. 358, 368 (2010) (holding that Honest Services Fraud “covers only
bribery and kickback schemes”); Evans v. United States, 504 U.S. 255, 260 (1992) (holding that Hobbs Act
extortion includes “taking a bribe”). Thus, courts commonly construe these statutes as requiring an “official act” as
defined in the federal bribery statute, 18 U.S.C. § 201—even though neither the Hobbs Act extortion nor honest
services fraud statutes use that term. See, e.g., McDonnell, 136 S. Ct. at 2365.

App. 4

No. 18-4260

Dimora v. United States

Page 5

The district court rejected Dimora’s proposed instructions. Instead, the court adopted the
following language:
The term “official act” includes any decision or action on any question, matter,
cause, suit, proceeding, or controversy, which may at any time be pending, or
which may by law be brought before any public official, in such official’s official
capacity, or in such official’s place of trust or profit. Official acts include the
decisions or actions generally expected of the public official. In addition,
“official action” includes the exercise of both formal official influence (such as a
public official’s votes) and informal official influence (such as a public official’s
influence on other public officials). The term “official act” does not include
actions taken in a personal or non-official capacity, such as actions taken as a
political party leader.
R. 735-1, PageID 16988–89 (emphasis added). Dimora objected, arguing that this definition was
“too broad.” The district court overruled that objection and the above definition was included in
the court’s jury instructions at the end of trial.
The jury convicted Dimora on thirty-three of the thirty-four counts, including all of the
bribery charges. After trial, Dimora moved for a new trial.4 Relevant here, he argued that the
district court had erred by (i) instructing the jury to use an overly broad definition of “official
acts,” and (ii) excluding his state ethics reports at trial. The district court denied Dimora’s
motion.
Dimora reiterated those same two arguments on appeal.

United States v. Dimora,

750 F.3d 619, 624–30 (6th Cir. 2014). Our court rejected the jury-instruction claim, concluding
that the “instructions fairly trace[d] the line between permissible gifts and impermissible bribes.”
Id. at 625. We agreed, however, that the district court erred when it ruled that the ethics reports
were inadmissible hearsay. Id. at 628. Yet because we concluded that “overwhelming evidence”
showed that Dimora had “made phone calls and held meetings on the bribers’ behalf,” we held
that the district court’s error was harmless and affirmed Dimora’s convictions. Id. at 628–30.
But see id. at 632–33 (Merritt, J., dissenting).
4Dimora

also moved for acquittal, arguing that the evidence was insufficient to support his convictions.
The district court concluded that the evidence was insufficient to support a conviction on Count 10 of the
indictment, which had charged Dimora with Hobbs Act Conspiracy. Accordingly, the district court partially granted
Dimora’s motion for acquittal and vacated his conviction on Count 10.

App. 5

No. 18-4260

Dimora v. United States

Page 6

Two years later, the Supreme Court construed the term “official act” to exclude most
phone calls and meetings. See McDonnell, 136 S. Ct. at 2367–68. McDonnell involved the
former governor of Virginia who, like Dimora, had been charged with various bribery offenses,
including Hobbs Act extortion and honest services fraud. Id. at 2365. And like here, the trial
court in McDonnell had instructed the jury that “official acts” include any “acts that a public
official customarily performs.” Compare id. at 2366, with R. 735-1, PageID 16988–89 (defining
official acts to include “decisions or actions generally expected of the public official”). The
Supreme Court vacated McDonnell’s convictions, concluding that constitutional concerns and
the statutory text required a narrow reading of the term “official acts.” See McDonnell, 136 S.
Ct. at 2367–73, 2375. “[S]etting up a meeting, calling another public official, or hosting an
event does not, standing alone, qualify as an ‘official act.’” Id. at 2368. Instead, the Court held
that “official acts” are limited to “formal exercise[s] of governmental power.” Id.
Dimora filed a petition to vacate his conviction under 28 U.S.C. § 2255. He argued that,
in light of McDonnell, the trial court’s jury instructions had erroneously allowed the jury to
convict him of lawful conduct. The district court denied Dimora’s petition, concluding that its
instructions had “sufficiently captured” the concerns raised by McDonnell. Alternatively, the
court concluded that any instructional error had been harmless because, “with few exceptions,
the conduct . . . underl[ying] Dimora’s convictions qualifie[d] as official acts” post-McDonnell.
Our court then granted Dimora a Certificate of Appealability (COA). Dimora v. United States,
No. 18-4260, slip op. at 6 (6th Cir. Mar. 27, 2019) (order). This appeal followed.
II.
We review the district court’s denial of a § 2255 motion de novo. Griffin v. United
States, 330 F.3d 733, 736 (6th Cir. 2003). Our inquiry here is three-fold. First, Dimora must
demonstrate that the trial court’s jury instructions violated “the Constitution or laws of the
United States.”5 See 28 U.S.C. § 2255. Second, if he makes that showing, we must determine
5Not

every violation of federal law is sufficient to state a claim for habeas relief. Generally, claims of nonconstitutional error are cognizable under § 2255 “only if they involved ‘a fundamental defect which inherently
results in a complete miscarriage of justice.’” Snider v. United States, 908 F.3d 183, 189 (6th Cir. 2018) (quoting
Davis v. United States, 417 U.S. 333, 346 (1974)). Here, the government has argued neither (1) that the
instructional error asserted by Dimora is non-constitutional nor, if so, (2) that it does not rise to the level of a

App. 6

No. 18-4260

Dimora v. United States

Page 7

whether the instructional error “had a substantial and injurious effect or influence on
the . . . jury’s verdict.” Griffin, 330 F.3d at 736; see also O’Neal v. McAninch, 513 U.S. 432,
437–38 (1995). Finally, if we conclude that the instructional error by itself was harmless, we
must determine whether the “cumulative effect” of the instructional error and the evidentiary
error (which we recognized on direct appeal) entitles Dimora to relief. See Schledwitz v. United
States, 169 F.3d 1003, 1016 (6th Cir. 1999).6
A.
We begin with the merits of Dimora’s instructional claim.

A trial court’s jury

instructions must, as a whole, “accurately . . . reflect the law.” United States v. Geisen, 612 F.3d
471, 485 (6th Cir. 2010) (citation omitted); see also United States v. Silver, 864 F.3d 102, 118
(2d Cir. 2017) (“[A] jury instruction [is] erroneous if it misleads the jury as to the correct legal
standard or does not adequately inform the jury on the law.” (quotation marks omitted)). Dimora
argues that the trial court’s instructions misstated the law by allowing the jury to “convict [him]
for conduct that was not unlawful.” We agree.
An “official act” is defined as any “decision or action” on any “question, matter, cause,
suit, proceeding or controversy” pending before a public official.7 See 18 U.S.C. § 201. That
definition contains a “two-part test.” United States v. Lee, 919 F.3d 340, 350 (6th Cir. 2019).
First, an official act must involve an official issue—a “question, matter, cause, suit, proceeding
or controversy.” Id. (quoting McDonnell, 136 S. Ct. at 2368). Second, the public official must
“fundamental defect,” see Davis, 417 U.S. at 346. Accordingly, we assume that Dimora’s instructional claim is
cognizable under § 2255 without deciding whether it is constitutional in nature. We note, however, that the
Supreme Court’s decision in McDonnell—which applied a harmless-error standard reserved for constitutional
error—suggests that Dimora’s instructional claim is one of constitutional error. See 136 S. Ct. at 2375 (“[W]e
cannot conclude that the errors in the jury instructions were ‘harmless beyond a reasonable doubt.’” (quoting Neder
v. United States, 527 U.S. 1, 16 (1999)).
6See

also Dimora, No. 18-4260, slip op. at 6 (order) (granting a COA on “whether: (1) the district court’s
jury instructions regarding an ‘official act’ were erroneous in light of McDonnell; (2) the instructional error, if any,
was harmless; and (3) the exclusion of his ethics reports at trial was still harmless when combined with any
instructional error”).
7The

full definition reads: “the term ‘official act’ means any decision or action on any question, matter,
cause, suit, proceeding or controversy, which may at any time be pending, or which may be brought before any
public official, in such official’s official capacity, or in such official’s place of trust or profit.” 18 U.S.C.
§ 201(a)(3).

App. 7

No. 18-4260

Dimora v. United States

Page 8

have “made a decision or t[aken] an action,” or “agreed to do so,” on that official issue. Id.
(quoting McDonnell, 136 S. Ct. at 2368).
Informal acts—like merely “setting up a meeting, calling another public official, or
hosting an event”—fail both prongs of that test. See McDonnell, 136 S. Ct. at 2368–70. Under
the first prong, “a typical meeting, telephone call, or event arranged by a public official” does not
qualify as a “question, matter, cause, suit, proceeding or controversy.” Id. at 2368. Instead, the
statutory terms “connote a formal exercise of governmental power, such as a lawsuit, hearing, or
administrative determination.” Id. And under the second prong, “hosting an event, meeting with
other officials, or speaking with interested parties is not, standing alone, a ‘decision or action.’”
Id. at 2370 (emphasis added). “Something more is required,” such as (a) “using [an] official
position to exert pressure on another official to perform an ‘official act’” or (b) “us[ing] [an]
official position to provide advice to another official, knowing or intending that such advice will
form the basis for an ‘official act.’” Id.
Given this complexity, the Supreme Court held in McDonnell that three clarifying
instructions are needed to prevent a jury from convicting the defendant for lawful conduct. Id. at
2374–75. First, the trial court should “instruct[] the jury that it must identify a ‘question, matter,
cause, suit, proceeding or controversy’ involving the formal exercise of governmental power.”
Id. at 2374 (emphasis added). Second, the trial court should “instruct[] the jury that the pertinent
‘question, matter, cause, suit, proceeding or controversy’ must be something specific and focused
that is ‘pending’ or ‘may by law be brought before any public official.’” Id. Third, the trial
court should “instruct[] the jury that merely arranging a meeting or hosting an event to discuss a
matter does not count as a decision or action on that matter.” Id. at 2375.
Here, the trial court’s instructions (understandably) did not contain those clarifications.
Instead, in addition to the statutory definition, the trial court offered three clarifying instructions
of its own:
[1] Official acts include the decisions or actions generally expected of the public
official. [2] In addition, “official action” includes the exercise of both formal
official influence (such as a public official’s votes) and informal official influence
(such as a public official’s influence on other public officials). [3] The term

App. 8

No. 18-4260

Dimora v. United States

Page 9

“official act” does not include actions taken in a personal or non-official capacity,
such as actions taken as a political party leader.
R. 725-1, PageID 16989.
The government claims that these clarifications “addressed McDonnell’s concerns using
different language.” It points primarily to the second sentence above, which told the jury that
“‘official action’ includes the exercise of both formal official influence (such as a public
official’s votes) and informal official influence (such as a public official’s influence on other
public officials).” According to the government, this instruction “limited official action to
formal exercises of official influence such as voting on a matter and defined qualifying informal
official influence as influencing another public official.” Thus, the government asserts, that
instruction “eliminated the ability for the jury to convict Dimora for simply making a phone call
or an introduction for networking purposes without . . . an associated attempt to influence
another official.”8
That interpretation is wishful thinking. The district court told the jury that official action
“includes” the exertion of “informal official influence (such as a public official’s influence on
other public officials).” R. 735-1, PageID 16989 (emphases added). The government claims that
this statement somehow “limited” the definition of official action to formal exercises of power
and the pressuring of other officials to perform official acts—both of which are still proper after
McDonnell. But the words “such as” and “includes” do not carry that sort of limiting effect.
Instead, the jury was free to follow the district court’s preceding statement that official acts
include all “actions generally expected of the public official.” And, indeed, at closing, the
government explicitly asked the jury to do so:
So let’s start again with the law, and specifically the law on official acts. . . .
[Y]our jury instructions say that “An official act is any decision or action
expected by a public official,” any decision or any action. . . . It can be informal.
And think about all the different informal things that public officials do . . . . They
8The

government also points to additional language in a different section of the instructions defining
bribery and kickbacks. This language states, “bribery or kickbacks are not provided if the benefit is intended to be,
and is accepted as, simply an effort to buy favor or generalized goodwill from a public official who . . . is . . . in a
position to act favorably on the giver’s interests.” The government contends that this “additional limiting language”
further captured McDonnell’s concerns. But this language does nothing to exclude meetings or phone calls from the
definition of “official acts.”

App. 9

No. 18-4260

Dimora v. United States

Page 10

hold meetings. They direct their staff. . . . Commissioners do more than just vote.
Commissioners have meetings with people in the business community.
Commissioners place calls to other public officials. . . . Anything commissioners
do because they’re a commissioner -- for example, because he’s the
commissioner, he can tell Renee Strong to schedule a meeting. . . . Those are
official acts.
R. 1046, PageID 30469–70 (emphasis added). The breadth of the government’s interpretation at
closing reveals the lack of any meaningful limitation in the instructions; and the absence of that
limitation is precisely why the instructions “fail[ed] accurately to reflect the law.” Geisen,
612 F.3d at 485 (citation omitted).
McDonnell rejected instructions that were very similar to the trial court’s instructions
here. See 136 S. Ct. at 2373–74. In McDonnell, the trial court had told the jury that official acts
“include acts that a public official customarily performs” and actions taken “to exercise influence
or achieve an end.” Id. at 2373. The Supreme Court held that those instructions were erroneous
because they “lacked important qualifications” and were “significantly overinclusive.” Id. at
2374. The same is true here. The instructions at Dimora’s trial defined official acts as any
“actions generally expected of the public official” including “the exercise of . . . informal official
influence” over other public officials.

We conclude that those instructions are similarly

overinclusive and lacking in important qualifications.
Persuasive authority from the Second and Third Circuits supports this conclusion. In the
wake of McDonnell, both courts have invalidated convictions based on jury instructions similar
to those used by the trial court here. See Silver, 864 F.3d at 118; United States v. Skelos, 707 F.
App’x 733, 736 (2d Cir. 2017); United States v. Fattah, 914 F.3d 112, 152–54, 189 (3d Cir.
2019). For example, in Silver, the instructions stated that “[o]fficial action includes any action
taken or to be taken under color of official authority.” 864 F.3d at 112 (alteration in original)
(emphasis omitted).

And in Skelos, the instructions stated that official acts “include acts

customarily performed by a public official with a particular position,” 707 F. App’x at 736. In
both cases, the Second Circuit held that McDonnell had rendered those instructions erroneous.
See Silver, 864 F.3d at 112; Skelos, 707 F. App’x at 736. Similarly, in Fattah, the Third Circuit
held that instructions were erroneous because “the jury was not instructed that they had to place
[the defendant’s] efforts on one side or the other of th[e] divide” between “permissible attempts

App. 10

No. 18-4260

Dimora v. United States

Page 11

to express support” and “impermissible attempts to pressure” another official. Fattah, 914 F.3d
at 156.
The government points to the First Circuit’s decision in Woodward v. United States, 905
F.3d 40, 45 (1st Cir. 2018), which held that a trial court’s pre-McDonnell instructions had
“sufficiently captured” McDonnell’s concerns.

But, as Woodward acknowledged, the

instructions given in that case were “not comparable” to the instructions in cases like Silver. Id.
Nor are they comparable here. The trial court in Woodward had narrowly defined official acts as
“any decision or action in the enactment of legislation.” Id. (emphasis added). By tying the
definition to the enactment of legislation, the trial court had “substantially satisf[ied]
McDonnell’s definition of ‘official act.’” Id. Here, however, the trial court’s instructions
imposed no such constraint. The instructions defined official acts as any action “generally
expected of the public official.” Just like the instructions in Silver, Skelos, and Fattah, this
definition was “significantly overinclusive.” See McDonnell, 136 S. Ct. at 2373–74. Although
we do not fault the trial court for failing to anticipate McDonnell, we conclude that its
instructions were erroneous in light of that decision.
B.
That still leaves the question of harmlessness. An instructional error warrants habeas
relief only if it “had a ‘substantial and injurious effect or influence [o]n. . . the jury’s verdict.’”
See Fair v. United States, 157 F.3d 427, 430 (6th Cir. 1998) (quoting Brecht v. Abrahamson,
507 U.S. 619, 637 (1993)). That standard requires more than just a “reasonable possibility” that
the error was harmful. Davis v. Ayala, 576 U.S. 257, 268 (2015). A habeas court cannot require
the government to undertake “the arduous task of retrying a defendant based on mere speculation
that the defendant was prejudiced by trial error.” Id. (alterations adopted) (quoting Calderon v.
Coleman, 525 U.S. 141, 146 (1998) (per curiam)). But, at the same time, “[t]he inquiry cannot
be merely whether there was enough [evidence] to support the result.” O’Neal v. McAninch,
513 U.S. 432, 438 (1995) (quoting Kotteakos v. United States, 328 U.S. 750, 776 (1946)).
Instead, the Supreme Court has directed us to ask: “Do I, the judge, think that the error
substantially influenced the jury’s decision?” Id. at 436. If the answer is “yes” or the court is in
“grave doubt” about the error’s harmlessness, the conviction cannot stand. Id. at 437.

App. 11

No. 18-4260

Dimora v. United States

Page 12

The district court recognized these principles but erred in their application. First, the
court repeatedly relied on evidence sufficiency to conclude that any instructional error was
harmless. See, e.g., R. 1196, PageID 33170–71 (“From this evidence, a rational juror could
have concluded that Dimora sought, through Russo, to pressure or advise government officials to
take official action for Valentin’s benefit.” (emphasis added)); id., PageID 33178 (“Based on this
exchange, the jury could also have properly found that Dimora’s support for Neiheiser and his
project was clearly offered and intended to exert pressure on Fitzgerald to perform the official
act of privatizing the rink and selling it to Neiheiser.” (emphasis added)). Instead of focusing on
what a rational jury could have found, the district court should have determined whether the
actual jury in Dimora’s trial was “substantially influenced” by the instructional error. O’Neal,
513 U.S. at 436.
Second, the court repeatedly pointed back to its belief that the instructions had been
adequate to conclude that any error was harmless. See, e.g., R. 1196, PageID 33174 (“Applying
the Court’s instructions, a rational juror would have concluded that offering a letter of
recommendation for a friend’s daughter [was insufficient]”); id., PageID 33167 (“Still, the
Court’s charge would have informed the jury that such an act did not qualify under the law.”);
id., PageID 33178 (“Because the jury was properly instructed on these counts . . . there is no
prejudice and no reason to justify vacating these counts.”); id., PageID 33187 (“Those few acts
that would no longer pass muster under McDonnell would have been disregarded by a rational
juror applying the Court’s instructions.”). By bootstrapping its harmlessness finding to the
purported validity of the instructions, the district court rested its harmless-error analysis on a
faulty premise.
Rather than attempting the harmless-error analysis ourselves, however, we believe the
more “prudent” course is to remand for the district court to conduct the proper analysis in the
first instance. See Besser v. Walsh, 601 F.3d 163, 189 (2d Cir. 2010). The Supreme Court has
tasked lower courts with asking, “Do I, the judge, think that the error substantially influenced the
jury’s decision?” O’Neal, 513 U.S. at 436. Here, Dimora was convicted after a thirty-seven-day
trial, in which the jury heard testimony from more than sixty witnesses and deliberated on thirtyfour different counts. On this record, we believe the district court—which also presided over

App. 12

No. 18-4260

Dimora v. United States

Page 13

Dimora’s trial—is far better equipped to determine whether the instructional error substantially
influenced the jury’s verdict. Accordingly, we remand for the district court to apply properly the
harmless-error standard in the first instance.
But our remand is limited. The COA excluded any review of Dimora’s convictions
for bribery concerning programs receiving federal funds under 18 U.S.C. §§ 666 and 371
(Counts 4–6, 17–19), conspiracy to commit mail fraud and honest services mail fraud under
18 U.S.C. § 1349 (Counts 2, 9, and 16), RICO conspiracy under 18 U.S.C. § 1962(d) (Count 1),
conspiracy to obstruct justice under 18 U.S.C. §§ 1512 and 371 (Count 28), and falsification of
records in a federal investigation under 18 U.S.C. §§ 1519 and 2 (Count 29). Although Dimora
urges us to expand the scope of the COA to include these counts of conviction, we decline to do
so for the reasons stated in our prior order. See Dimora, No. 18-4260, slip op. at 4–6 (order).
Moreover, not all of the counts before us require further analysis on remand. With
respect to Counts 8, 22, and 23, the government relied exclusively on votes Dimora had cast as
commissioner to show “official acts” for convictions of Hobbs Act offenses under 18 U.S.C.
§ 1951. Because “formal exercise[s] of governmental power” are quintessential official acts, see
McDonnell, 136 S. Ct. at 2368, the trial court’s instructional error clearly did not have a
“substantial and injurious effect or influence on the . . . jury’s verdict” with respect to those
counts, see Griffin, 330 F.3d at 736. Accordingly, the district court need not reconsider whether
the instructional error prejudiced Dimora with respect to those convictions; we conclude that it
did not.
C.
Finally, because we do not decide whether the instructional error was harmless with
respect to most of the counts before us, we also do not decide whether the “cumulative effect” of
the instructional and evidentiary errors entitles Dimora to relief. See United States v. Parker,
997 F.2d 219, 221 (6th Cir. 1993). We note, however, that we are uncertain whether this theory
of prejudice is available to § 2255 petitioners. See United States v. Brown, 528 F.3d 1030, 1034
(8th Cir. 2008) (“[W]e have repeatedly rejected the cumulative error theory of post-conviction
relief.”). And we are especially uncertain that it is available where one of two claimed errors is

App. 13

No. 18-4260

Dimora v. United States

Page 14

an evidentiary error. See Davis v. United States, 417 U.S. 333, 346 (1974) (holding that nonconstitutional claims are cognizable under § 2255 only if “the claimed error . . . [is] a
fundamental defect which inherently results in a complete miscarriage of justice”). But we leave
these questions for the district court to consider on remand after it assesses the harmlessness of
the instructional error independent of any cumulative effect.
***
For the foregoing reasons we VACATE the district court’s judgment, DENY Dimora’s
request to expand the scope of the COA, and REMAND for further proceedings consistent with
this opinion.

App. 14

No. 18-4260

Dimora v. United States

Page 15

_________________
DISSENT
_________________
MERRITT, Circuit Judge, dissenting. I respectfully dissent from my colleagues’ decision
to remand this case to the district court for it to conduct its own harmless-error analysis. I would
vacate all counts contained in the Certificate of Appealability and remand for a new trial before a
properly instructed jury.
There is no question that the district court erroneously instructed the jury in light of
McDonnell v. United States, 136 S. Ct. 2355 (2016).

It is also clear that the erroneous

instructions “had a substantial and injurious effect or influence [o]n . . . the jury’s verdict”
because the instructions allowed the jury to convict Dimora based on lawful conduct. See Fair v.
United States, 157 F.3d 427, 430 (6th Cir. 1998) (quoting Brecht v. Abrahamson, 507 U.S. 619,
637 (1993)); see also McDonnell, 136 S. Ct. at 2375 (“Because the jury was not correctly
instructed on the meaning of ‘official act,’ . . . we cannot conclude that the errors in the jury
instructions were ‘harmless beyond a reasonable doubt.’”); United States v. Fattah, 914 F.3d
112, 155 (3d Cir. 2019) (“Because the jury may have convicted Fattah for conduct that is not
unlawful, we cannot conclude that the error in the jury instruction was harmless beyond a
reasonable doubt . . . .”); United States v. Silver, 864 F.3d 102, 124 (2d Cir. 2017) (concluding
that the erroneous jury instructions were not a harmless error).
The overwhelming majority of the counts involve both acts that remain “official” under
McDonnell and acts that we now know are legal. The Supreme Court, the Second Circuit, and
the Third Circuit have all recognized that neither we—nor the district court—can assume that the
jury did not convict Dimora for legal conduct. See McDonnell, 136 S. Ct. at 2375 (“Because the
jury was not correctly instructed on the meaning of ‘official act,’ it may have convicted
Governor McDonnell for conduct that is not unlawful.”); Fattah, 914 F.3d at 157 (“But, as we
have explained, we cannot rule out that the jury erroneously convicted [the defendants] based on
other actions that were not official acts under McDonnell.”) (footnote omitted); United States v.
Silver, 864 F.3d at 119 (“While the Government presented evidence of acts that remain ‘official’
under McDonnell, the jury may have convicted [the defendant] for conduct that is not unlawful,

App. 15

No. 18-4260

Dimora v. United States

Page 16

and a properly instructed jury might have reached a different conclusion.”) (footnote omitted).
For example, in Counts 20 and 21, the government alleged several “official acts.” Some of these
acts were votes by Dimora approving county loans to a business owned by Steven Pumper, an
acquaintance of Dimora’s doing business with the county. These acts remain “official” under
McDonnell. Other acts, however, include Dimora arranging meetings and making phone calls
for Pumper.

Because the jury instructions did not include “the principles laid down in

McDonnell,” the jury was free to conclude that the phone calls and arranging of meetings were
themselves official acts—“and it may have done so.” See Fattah, 914 F.3d at 154. Moreover,
the fact-intensive inquiries necessary to determine the legality of most of Dimora’s actions, such
as how forceful the language and tone used in a telephone call must be “before it becomes
impermissible ‘pressure or advice’ . . . falls within the domain of a properly instructed jury.”
Fattah, 914 F.3d at 156. I would therefore hold that the jury instructions were erroneous, that
the error was not harmless, and vacate all convictions contained in the Certificate of
Appealability.

See McDonnell, 136 S. Ct. at 2375 (“We accordingly vacate Governor

McDonnell’s convictions.”); Fattah, 914 F.3d at 146 (“We hold that the District Court erred in
upholding the jury verdict in light of McDonnell, and we will therefore reverse and remand for
retrial on Counts 16, 17, 18, 22, and 23.”); Silver, 864 F.3d at 124 (vacating counts to which
McDonnell applied).
I would vacate all counts in this appeal, including the counts that involve only acts that
remain “official” under McDonnell, because of the district court’s erroneous exclusion of the
ethics reports. See United States v. Dimora, 750 F.3d 619, 632‒33 (6th Cir. 2014) (Merritt, J.,
dissenting). I explained in my earlier dissent:
Subjective intent is the keystone of bribery. The influence of money in politics is
growing by leaps and bounds, and the subjective intent of the public official
receiving the money is perhaps the last and only distinguishing feature between
criminal ‘quid pro quo bribery’ and permissible ‘ingratiation.’ . . . The exchange
for money for ‘ingratiation and access is not corruption’ at all; indeed, the
exchange is so essential to the foundation of democracy that it is protected by the
First Amendment.
Id. at 632 (internal citations omitted). The ethics reports were paramount to Dimora’s defense
that he did not have the necessary intent for conviction. Now that actions qualifying as “official”

App. 16

No. 18-4260

Dimora v. United States

Page 17

are much more limited under McDonnell, the ability for Dimora to present to a jury that he
disclosed gifts from his alleged bribers is even more important to his defense and his receiving a
fair trial. Additionally, the treatment of the ethics reports by the prosecution, defense counsel,
and the district court show their importance to Dimora’s defense. “[T]he prosecutor promised
the jury that she would show a culture of secrecy and nondisclosure shielding Dimora’s
corruption” and “fought tooth and nail, in sidebar and outside of the jury’s presence, to keep
these ethics reports out of evidence.” Id. at 633. “Dimora promised, after assurance from the
district court that the ethics reports could be admitted, to rebut the government’s claim by
showing the jury [the ethics] reports disclosing Dimora’s relationship with his alleged bribers.”
Id. And the district court told the jury that “‘it’s very important to the government’s case to be
able to indicate there wasn’t any disclosure’ of Dimora’s political patronage.” Id. These “facts
[] are often of more importance to a jury than to an appellate judge.” Id.
“To what extent the reports would have influenced the jury, I cannot and need not know.
As appellate judges, we are not qualified to stack inference on inference for a jury. It is our job
to preserve trial by jury[.]” Id. That is why I would vacate all of Dimora’s convictions in this
appeal and remand for a new trial, because the only proper fact-finding body for these issues is a
properly instructed jury that considers Dimora’s ethics reports—not appellate judges and not a
district court reviewing a 30,000 page record of a 37-day trial it heard 8 years ago.
I respectfully dissent.

App. 17

Case: 18-4260

Document: 9-2

Filed: 03/27/2019

Page: 1

No. 18-4260
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JAMES C. DIMORA,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

),/('

0DU
'(%25$+6+817&OHUN

ORDER

James C. Dimora, a federal prisoner represented by counsel, appeals the district court’s
judgment denying his motion to vacate, set aside, or correct his sentence filed pursuant to 28 U.S.C.
§ 2255. Dimora moves for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b)(2).
In 2012, a jury convicted Dimora of one count of conspiracy, in violation of the Racketeer
Influenced and Corrupt Organizations Act, 18 U.S.C. § 1962(d) (Count 1); three counts of
conspiracy to commit mail fraud and honest services mail fraud, in violation of 18 U.S.C. § 1349
(Counts 2, 9 & 16); seven counts of Hobbs Act conspiracy, in violation of 18 U.S.C. § 1951
(Counts 3, 12, 14, 21, 22, 24 & 26); nine counts of violating the Hobbs Act, in violation of 18
U.S.C. § 1951 (Counts 7, 8, 11, 13, 15, 20, 23, 25 & 27); two counts of conspiracy to commit
bribery concerning programs receiving federal funds, in violation of 18 U.S.C. § 371 (Counts 4 &
17); four counts of bribery concerning programs receiving federal funds, aiding and abetting, in
violation of 18 U.S.C. §§ 666(a)(1)(B) & 2 (Counts 5, 6, 18 & 19); one count of conspiracy to
obstruct justice, in violation of 18 U.S.C. § 371 (Count 28); one count of destruction, alteration,
or falsification of records in a federal investigation, in violation of 18 U.S.C. §§ 1519 and 2 (Count
29); and four counts of filing false tax returns, in violation of 26 U.S.C. § 7206(1) (Counts 34-37).
The district court sentenced Dimora to a total of 336 months of imprisonment, to be followed by

App. 18

Case: 18-4260

Document: 9-2

Filed: 03/27/2019

Page: 2

No. 18-4260
-23 years of supervised release. This court affirmed. United States v. Dimora, 750 F.3d 619 (6th
Cir. 2014).
In 2017, Dimora filed a § 2255 motion, arguing that his federal bribery convictions must
be vacated in light of the Supreme Court’s decision in McDonnell v. United States, 136 S. Ct. 2355
(2016), which refined the definition of an “official act” in 18 U.S.C. § 201(a)(3). Dimora also
argued that the district court erred by excluding his ethics reports, an issue which was resolved
against him on direct appeal by a divided panel of this court. See Dimora, 750 F.3d at 628-30.
The district court denied the motion to vacate, finding that its jury instructions sufficiently
addressed the concerns raised in McDonnell. Dimora v. United States, No. 1:10CR387, 2018 WL
5255121, at *12 (N.D. Ohio Oct. 22, 2018). To the extent that its instructions were in error, the
district court concluded that the error was harmless because most of the acts underlying Dimora’s
convictions would still qualify as “official acts” under McDonnell, and those few that would no
longer qualify would have been disregarded by a rational juror applying its instructions. Id. at *26.
The district court also declined to re-assess the exclusion at trial of Dimora’s ethics reports because
the issue had already been thoroughly litigated on direct appeal. Id. at *26-27. To the extent that
Dimora raised additional issues in the district court that are not raised in his COA motion—
including in a concurrent, pro se motion to amend his motion to vacate—such arguments are
abandoned on appeal. See Jackson v. United States, 45 F. App’x 382, 385 (6th Cir. 2002).
Dimora now seeks a COA on whether: (1) the district court’s jury instructions regarding
an “official act” were erroneous in light of McDonnell and thus allowed the jury to convict for
conduct that was not an “official act”; (2) the prejudicial effect of any instructional error “spilled
over” to his convictions for mail and wire fraud and his convictions under § 666; and (3) the
exclusion of his ethics reports at trial was harmless when combined with any instructional error.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). When the
denial of a motion is based on the merits, “[t]he petitioner must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong.” Slack

App. 19

Case: 18-4260

Document: 9-2

Filed: 03/27/2019

Page: 3

No. 18-4260
-3v. McDaniel, 529 U.S. 473, 484 (2000). To satisfy this standard, the applicant must demonstrate
“that jurists of reason could disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further.” Miller-El, 537 U.S. at 327.
Dimora argues that the district court’s jury instruction concerning “official acts” did not
conform to the requirements of McDonnell. That case clarified the elements for honest services
fraud, which requires that a defendant commit an “official act” in exchange for something of value.
The Supreme Court concluded that:
an “official act” is a decision or action on a “question, matter, cause, suit,
proceeding or controversy.” The “question, matter, cause, suit, proceeding or
controversy” must involve a formal exercise of governmental power that is similar
in nature to a lawsuit before a court, a determination before an agency, or a hearing
before a committee. It must also be something specific and focused that is
“pending” or “may by law be brought” before a public official. To qualify as an
“official act,” the public official must make a decision or take an action on that
“question, matter, cause, suit, proceeding or controversy,” or agree to do so. That
decision or action may include using his official position to exert pressure on
another official to perform an “official act,” or to advise another official, knowing
or intending that such advice will form the basis for an “official act” by another
official. Setting up a meeting, talking to another official, or organizing an event (or
agreeing to do so)—without more—does not fit that definition of “official act.”
McDonnell, 136 S. Ct. at 2371-72. The district court found that its jury instructions sufficiently
complied with these requirements. Dimora, 2018 WL 5255121, at *10-12. The district court
instructed the jury:
The term “official act” includes any decision or action on any question, matter,
cause, suit, proceeding or controversy, which may at any time be pending, or which
may be by law be brought before any public official in such official’s official
capacity or in such official’s place of trust or profit. Official acts include the
decisions or actions generally expected of the public official. In addition, “official
action” includes the exercise of both formal official influence, such as a public
official’s votes, and informal official influence, such as a public official’s influence
on other public officials. The term “official act” does not include actions taken in
a personal or nonofficial capacity, such as actions taken as a political party leader.
R. 1044, PageID 30007-08.

In making its decision, the district court also relied upon its

instructions to the jury that:

App. 20

Case: 18-4260

Document: 9-2

Filed: 03/27/2019

Page: 4

No. 18-4260
-4(1) “bribery or kickbacks are not proved if the benefit is intended to be and is
accepted as simply an . . . effort to buy favor or generalized goodwill from a public
official who either has been, is, or may at some unknown, unspecified later time, in
a position to act favorably on the giver’s interests”;
(2) “you may consider the official action’s lawfulness, desirability, or benefit to the
public welfare, just as you would any other circumstances in the case, as it may
bear upon the intent of a defendant in accepting the thing of value”; and
(3) “property given with the sole motive of cultivating friendship is not a bribe.”
Id., PageID 30005-07.
Dimora argues that the district court’s instructions permitted the jury to convict him for
acts that did not fit into the McDonnell definition of “official acts.” Specifically, Dimora contends
that the district court’s instructions did not inform the jury that: (1) the “question, matter, cause,
suit, proceeding or controversy” must involve a formal exercise of governmental power; (2) the
“official act” must involve a matter that is specific, focused, and pending, or may by law be brought
before any public official; and (3) not all official conduct is an “official act,” such as setting up a
meeting, talking to another official, or organizing an event. Dimora further points to various
instances during trial where the government urged the jury to convict for conduct that did not fit
into McDonnell’s definition of an “official act.” In these circumstances, reasonable jurists could
debate whether the district court’s instructions adequately addressed the concerns outlined in
McDonnell.
Dimora argues that, if this court finds the jury instructions regarding “official acts” to be
in error, such error extended to his convictions involving bribery concerning programs receiving
federal funds, pursuant to 18 U.S.C. § 666 (Counts 4-6, 17-19), and his convictions for conspiracy
to commit mail fraud and honest services mail fraud, pursuant to 18 U.S.C. § 1349 (Counts 2, 9 &
16).1 However, reasonable jurists could not debate that Dimora’s bribery convictions pursuant to
§ 666 are unaffected by the McDonnell decision. See United States v. Porter, 886 F.3d 562, 56566 (6th Cir. 2018). As for Dimora’s convictions for conspiracy to commit mail fraud and honest
1

Dimora presents no argument in his COA motion contesting the district court’s conclusion that
Counts 1, 28 and 29 are unaffected by McDonnell. See Dimora, 2018 WL 5255121, at *9 n.8.

App. 21

Case: 18-4260

Document: 9-2

Filed: 03/27/2019

Page: 5

No. 18-4260
-5services mail fraud, Dimora argues that the district court gave an erroneous instruction regarding
the kind of “official act” required for honest services mail fraud. But the special verdict form
shows that the jury found Dimora guilty of those conspiracy charges for two independent reasons:
first, because it found that Dimora conspired to commit honest mail fraud (which admittedly
required an “official act”); and second, because it found that Dimora conspired to commit simple
money or property fraud (which does not require an “official act”). See 18 U.S.C. §§ 1341, 1343;
United States v. Frost, 125 F.3d 346, 358-59 (6th Cir. 1997). The district court thus held that any
error in the instruction regarding what constitutes an “official act” did not affect these convictions.
Reasonable jurists would not debate that conclusion.
Dimora also argues that the evidence related to the alleged conspiracy to commit honest
services mail fraud had a spillover effect on the jury’s consideration of his alleged conspiracy to
commit money or property fraud. See United States v Wright, 665 F.3d 560, 576-77 (3d Cir. 2012).
But Dimora raises this argument in only a few sentences. He does not explain which evidence
caused prejudice, or whether any of that evidence would have been admissible anyway to support
the many other charges. Thus, reasonable jurists would not debate the district court’s ruling that
Dimora’s conclusory argument failed to show a prejudicial spillover effect.
Regarding Dimora’s remaining federal bribery convictions, the district court conducted a
count-by-count analysis, and concluded that, even if its instructions were lacking, any error was
harmless because
the vast majority of the acts charged in the indictment, and proven by the
government at trial, established that Dimora engaged in conduct that constitutes
official acts in a post-McDonnell world . . . Those few acts that would no longer
pass muster under McDonnell would have been disregarded by a rational juror
applying the Court’s instructions.
Dimora, 2018 WL 5255121, at *26. Dimora argues that, even if his convictions are supported by
evidence of conduct that would fit under McDonnell’s definition of “official acts,” the jury could
have nonetheless convicted him based on actions that do not satisfy the definition. Dimora points
out that some of the conduct described in McDonnell would have satisfied the definition of
“official acts,” see McDonnell, 136 S. Ct. at 2365-66, but the Supreme Court nonetheless decided

App. 22

Case: 18-4260

Document: 9-2

Filed: 03/27/2019

Page: 6

No. 18-4260
-6that it could not find the erroneous jury instructions harmless beyond a reasonable doubt because
the jury may have convicted for conduct that was not unlawful. Id. at 2375; see also United States
v. Silver, 864 F.3d 102, 119 (2d Cir. 2017), cert. denied, 138 S. Ct. 738 (2018); United States v.
Skelos, 707 F. App’x 733, 737-38 (2d Cir. 2017). Dimora has presented issues that could be
debated by jurists of reason and are thus adequate to deserve encouragement to proceed beyond
the COA stage. See Miller-El, 537 U.S. at 336.
Dimora also requests a COA to reconsider this court’s divided decision on direct appeal
that the exclusion of his ethics reports at trial was harmless error. See Dimora, 750 F.3d at 62830. He argues that such a reconsideration is appropriate because, if this court finds error in the
district court’s jury instructions, the combined effect of the two errors could lead this court to
conclude that the cumulative effect was not harmless. Because Dimora’s argument is intertwined
with the jury-instruction issue, this court will also grant a COA on whether cumulative error could
tip the scales away from harmless error. See, e.g., Campbell v. United States, 364 F.3d 727, 736
(6th Cir. 2004).
Accordingly, the application for a COA is GRANTED on whether: (1) the district court’s
jury instructions regarding an “official act” were erroneous in light of McDonnell; (2) the
instructional error, if any, was harmless; and (3) the exclusion of his ethics reports at trial was still
harmless when combined with any instructional error. A COA is DENIED on whether the
prejudicial effect of any instructional error spilled over to his convictions for mail and wire fraud
or his convictions under § 666. The Clerk’s Office is directed to issue a briefing schedule on the
certified issues.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

App. 23

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 1 of 65. PageID #: 33131

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
JAMES C. DIMORA,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.

)
)
)
)
)
)
)
)
)
)
)

CASE NO. 1:10CR387
(CASE NO. 1:17-cv-1288)
JUDGE SARA LIOI
MEMORANDUM OPINION

In 2012, petitioner James C. Dimora (“Dimora”) was tried by a jury and convicted of
multiple federal crimes, including extortion, bribery, money and property mail and wire fraud
and honest services mail and wire fraud, racketeering, obstruction, falsifying documents, and tax
evasion, as well as conspiracy to commit many of these crimes. He was sentenced by this Court,
and, thereafter, he unsuccessfully appealed the Court’s judgment to the Sixth Circuit Court of
Appeals and was ultimately denied certiorari review by the United States Supreme Court.
Dimora now returns to this Court, by and through his counsel, seeking collateral review
of his convictions and sentence under 28 U.S.C. § 2255. (Doc. No. 1162 [“Mot.”].) His motion is
grounded in the Supreme Court’s ruling in McDonnell v. United States, -- U.S. --, 136 S. Ct.
2355, 195 L. Ed. 2d 639 (2016), which narrowed and focused the legal definition of “official act”
in the federal bribery statute, 18 U.S.C. § 201(a)(3). According to Dimora, the activities for
which he was convicted no longer qualify as “official acts” under the law.
But unlike McDonnell, the facts in this case involve a multitude of official acts, and the
instructions do not suffer from the same deficiencies. “Through thousands of wiretaps and other

App. 24

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 2 of 65. PageID #: 33132

means, the investigation revealed that Dimora’s tenure as [Cuyahoga County Commissioner] was
rife with quid pro quo arrangements between him and individuals seeking favors of one sort or
another from the county and other governments. He handed out public jobs, influenced
Cleveland decision-makers and steered public contracts in return for approximately 100 bribes
worth more than $250,000.” United States v. Dimora, 750 F.3d 619, 623 (6th Cir. 2014).
Accordingly, Respondent United States of America (“government”) opposes the motion, arguing
that the evidence offered at trial overwhelmingly supports a finding that Dimora traded official
acts for bribes, even after McDonnell. (Doc. No. 1182 [“Opp’n”]; see Doc. No. 1189 [“Reply”].)
I. BACKGROUND
Even though the underlying facts of this case have been set forth in numerous opinions at
the trial and appellate level, in light of the ruling in McDonnell, it is necessary to revisit the
salient facts in some detail. In 2007, the Federal Bureau of Investigation (“FBI”) launched a
multi-year probe into political corruption in Cuyahoga County, Ohio. At the heart of the
investigation were two men: Dimora and Frank Russo (“Russo”), who were the “centers of
influence” for the county government. (Doc. No. 1038, Tr. Jury Trial Vol. 25 (Randazzo), at
28817. 1) Russo served as County Auditor, and his department was the single largest in the
county government.
Dimora was one of three elected members of the Board of County Commissioners

All page number references are to the page identification number generated by the Court’s electronic docketing
system.
1

2

App. 25

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 3 of 65. PageID #: 33133

(“BOCC”), and his influence and authority as a member of this board was significant. 2 The
BOCC had the statutory power to, among other things: enter into contracts with other
governmental units; purchase, lease, or construct county facilities; sell, lease, or rent any real
property owned by the county and not used for public purposes; appropriate funds for the court
of common pleas; approve loans or grants for economic development; issue bonds to secure
grants in excess of the community improvement fund; and enter into agreements for construction
or repair of county infrastructure. (See Ohio Rev. Code §§ 307.01 et seq.) The BOCC also had
control over the budgets for the various county departments, including the Auditor’s Office and
the Common Pleas Court. (Doc. No. 1026, Tr. Jury Trial Vol. 18 (Kelley), at 26219-20; Doc. No.
1017, Tr. Jury Trial Vol. 10 (Pokorny), at 24135.)
Testimony at Dimora’s trial demonstrated that he also had authority over the many
municipalities within the county. Several witnesses testified as to Dimora’s financial control over
county suburbs like Bedford, (Doc. No. 1019, Tr. Jury Trial Vol. 12 (Massie), at 24830, 2483839), including contracts for suburban road construction (Doc. No. 1015, Tr. Jury Trial Vol. 8
(Dever), at 23773-79), and the distribution of grant money between the municipalities. (Doc. No.
1034, Tr. Jury Trial Vol. 21 (Oyaski), at 27550-51.) During this time period, Dimora also served
as the county chair of the Democratic Party, making him ideally connected to all of the major
power brokers in the county.
The investigation revealed that Dimora and Russo used their government positions to

Shortly after the results of the FBI’s investigation were made public, the voters of Cuyahoga County voted to
eliminate the three-commissioner form of government and put in its place a government administered by an elected
county executive and council. See Dimora, 750 F.3d at 623 (“Three commissioners historically have led the
government of [Cuyahoga County], though that changed (perhaps due to the charges in this and related cases) when
the people of Cuyahoga County voted for a county executive form of government that started in 2011.”)
2

3

App. 26

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 4 of 65. PageID #: 33134

benefit themselves and their co-conspirators through multiple fraud and bribery schemes
designed to trade official acts for things of value. Through these schemes, Dimora and Russo
were believed to have corruptly affected and influenced the awarding of county contracts and
grants, the hiring of county employees (including the hiring of ghost employees), the results of at
least one county election, and the outcome of civil litigation in various county and municipal
courts. See generally Dimora, 750 F.3d at 623. In addition to Russo and Dimora, more than sixty
individuals—including other public officials, county judges, and private business executives—
were ultimately indicted, and all but one were convicted. The vast majority of these individuals
entered into plea agreements, some went to trial, and a number of them, like Russo, testified at
Dimora’s trial.
Dimora, along with his co-defendant, Michael Gabor (“Gabor”) (one of the ghost
employees hired in the Auditor’s Office), were two of the last defendants to go to trial. Much of
the focus of the trial was the vast authority Dimora had over the day-to-day activities of the
county government, and his ability to exploit that authority to obtain things of value for himself
and his friends. Russo testified that he and Dimora enjoyed socializing with a group of local
businessmen and county officials they dubbed the “A Team” or the “in-crowd” or the “in-circle,”
and they used “sponsors” to fund the group’s activities. (Doc. No. 1039, Tr. Jury Trial Vol. 26
(Russo), at 28886-87; see id. at 28923.) If no sponsor attended a dinner or event, a member of the
group would make calls to find one. Sometimes they asked for a sponsor’s credit card number to
pay the bill. (Id. at 28886-91.) One thing remained constant—Dimora never paid the bill. (Doc.
No. 1024, Tr. Jury Trial Vol. 15 (Kelley), at 25751.)
The sponsors included Kevin Kelley, Steve Pumper, Michael Forlani, Ferris Kleem, and
4

App. 27

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 5 of 65. PageID #: 33135

Rob Rybak. (Doc. No. 1039, Tr. Jury Trial Vol. 26 (Russo), at 28897, 28902-03.) In exchange
for providing these dinners and other things of value, “[s]ponsors received personal attention on
anything that came up,” such as a “daughter getting a parking ticket, a son wanting a [county]
job, a brother being [a] contractor and wanting a contract, there were multiple, multiple issues at
all times that [the sponsors] had us [Dimora and Russo] doing for them.” (Id. at 28901.) In other
words, if you were a sponsor, you “got special treatment.” (Id.)
Russo explained that the sponsors tailored their gifts to the things that Dimora enjoyed.
Dimora “loved his backyard. . . . [I]t was the number one thing in his life. If anybody could help
him in the backyard [with improvements such as a pool, outdoor kitchen and pizza oven, granite
counter tops, tiki hut, etc.], it was a great privilege to him. The second thing was [Dimora] liked
fine food and fine alcohol, only the best. Big thick steaks, Crown Royal . . . . [T]he third thing
was . . . that [Dimora] like[d] cash from people. . . . And the fourth thing [was] [Dimora] like[d]
pretty girls and prostitutes.” (Id. at 28917-18; see also id. at 29012.)
One of the first sponsors to testify, Ferris Kleem (“Kleem”), a local contractor who
owned construction companies and held interests in other businesses, explained that he helped
finance a trip to Las Vegas for Dimora and his friends, paying for the airfare, hotel
accommodations, alcohol, expensive dinners, gambling, trips to an exclusive swimsuit optional
pool, and prostitutes. In exchange for these and others things of value given to Dimora over time,
Dimora voted to award Kleem county construction contracts, obtained a county position for one
of Kleem’s relatives, assisted Kleem’s cousin in obtaining a grant for his municipality, and fixed
a county smoking violation issued against a restaurant in which Kleem held an interest.
Dimora’s efforts to secure the Coe Lake grant, a construction grant to fund a handicap
accessible bridge in the City of Berea, Ohio, showcased his influence and his ability to pressure
5

App. 28

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 6 of 65. PageID #: 33136

other public officials. Kleem’s cousin (who was the Mayor of Berea) recalled a three-way
telephone conversation with County Development Director Tracy Nichols (“Nichols”) in which
Nichols was much more deferential and cooperative regarding Kleem’s efforts to obtain the Coe
Lake grant for his cousin’s community when Dimora was on the line. In the conversation,
Dimora advocated Kleem’s cousin’s position that HUD guidelines permitted funding for
handicapped accessibility projects, a position which Nichols had previously opposed. (Doc. No.
1029, Tr. Jury Trial Vol. 31 (Cyril Kleem), at 26898-99.) Nichols later testified that she made reexamining her rejection of the Coe Lake grant a priority because Dimora had called her about it,
and he was her boss. (Doc. No. 1030, Tr. Jury Trial Vol. 32 (Nichols), at 27111-12.) Nichols
ultimately did change her mind, and Dimora’s efforts culminated in his casting a vote to approve
the Coe Lake grant. (Gov’t Trial Ex. 400-G (County Agenda Action).)
Another sponsor, Steve Pumper (“Pumper”), also spoke to Dimora’s considerable power
and influence. He testified that he was willing to pay Dimora bribes to gain access to that
influence. He explained:
You know, [Dimora] was one vote out of three on the [BOCC]. He had a lot of
power at the time. He had control of a lot of folks on the council, on the – some of
the judges, some of the council people. You know, so they had, between himself
and Mr. Russo, they had a lot of control back then. . . . Well, it benefits me
because I need things done, you know. So from my standpoint I was able to get
some loans from the county a lot quicker and faster. Whenever I made a call to
have something done, [Dimora] would make those calls on my behalf. And so,
yeah, it was a great benefit to be able to just go to somebody like [Dimora] than
climbing up through the chain through the bottom. . . . It’s a huge benefit. It’s a
time-saving benefit when you’re trying to get a project closed out, you know, or
receive money that you need, you know, that you need for a project and you don’t
want to put up some of your own money. It’s a huge benefit for myself. . . . He
made a call for – I was going through a lawsuit with Letter Perfect on this
Cleveland Browns suit I was involved with. And so [Dimora] made a call to the
judge that was handling the case . . . to, you know, try to speed up the closing of
that lawsuit and help obviously bring down what I needed to, you know, settle
with. So by him making that call was a help for [the judge] to go ahead and react
6

App. 29

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 7 of 65. PageID #: 33137

pretty quickly to that as well. 3
(Doc. No. 1034, Tr. Jury Trial Vol. 21 (Pumper), at 27741-42 (footnote added).)
After a 37-day jury trial, wherein the jury heard this and similar testimony regarding
Dimora’s corrupt schemes, the jury returned guilty verdicts against Dimora and his co-defendant
on all but one charge. On August 1, 2012, the Court sentenced Dimora to a within-guidelines
sentence of 336 months of imprisonment, to be followed by three years of supervised release.
The Court also imposed restitution. (Doc. No. 957 (Dimora Judgment).)
On direct appeal, Dimora challenged the district court’s jury instructions and refusal to
admit certain end-of-year ethics reports that would have shown that Dimora reported receiving
certain unspecified gifts from various individuals and entities. With respect to the jury
instructions, the Sixth Circuit found that the district court had properly instructed the jury on the
difference between gifts given in friendship and bribes given in exchange for official acts. As for
the ethics reports, the court of appeals ruled that the error, if there was any, in excluding the
reports was harmless “in view of the considerable array of evidence against Dimora.” Dimora,
750 F.3d at 628.

In the end, Dimora pressured the common pleas judge—Bridget McCafferty (convicted as a result of the Cuyahoga
County public corruption investigation)—to do a whole lot more. During a fundraiser, Dimora instructed Judge
McCafferty to “get this thing done” and, “[y]ou got to get a handle on it,” referring to Pumper’s civil lawsuit. (Doc.
No. 1039, Tr. Jury Trial Vol. 26 (Russo), at 29010.) Pumper also testified that he had Dimora call the judge to “see
if he [couldn’t] push this thing along, get this thing done, and hopefully drive the difference of price of what [the
subcontractor] was asking for versus where we were at.” (Doc. No. 1035, Tr. Jury Trial Vol. 22 (Pumper), at 27862.)
In a subsequently captured ex parte call to Pumper, Judge McCafferty detailed her efforts to resolve the lawsuit at an
amount acceptable to him. (Gov’t Ex. 1700-XX-TR.)

3

7

App. 30

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 8 of 65. PageID #: 33138

II. THE DECISION IN MCDONNELL
Dimora’s petition rests primary upon the Supreme Court’s decision in McDonnell. There,
the Court reviewed former Virginia Governor Robert McDonnell’s conviction for bribery. 136 S.
Ct. at 2361. Governor McDonnell and his wife received $175,000 in loans and gifts from a
Virginia businessman, Jonnie Williams, and, in exchange, Governor McDonnell allegedly
performed various tasks and favors to further Williams’s plans to promote a nutritional
supplement manufactured by his company. Id. The evidence at trial demonstrated that, in
exchange for various gifts, including $20,000 in designer clothing for Governor McDonnell’s
wife, the governor passed on a scientific letter addressing a proposed research protocol for the
supplement to the secretary of health and human resources, hosted a lunch event for Williams’s
company at the governor’s mansion, 4 and recommended that two of his subordinates meet with a
representative from Williams’s company. Id. at 2362-64. With respect to setting up meetings for
constituents, Governor McDonnell testified that this was “something he did ‘literally thousands
of times’ as Governor, and that he did not expect his staff ‘to do anything other than to meet’
with Williams.” Id. at 2366 (record cite omitted).
Under the relevant federal bribery law, the government was required to show that
“Governor McDonnell committed (or agreed to commit) an ‘official act’ in exchange for the
loans and gifts[]” from Williams. Id. at 2361. The indictment charged the governor with
committing at least five “official acts,” including “arranging meetings for [Williams] with

During the luncheon, Governor McDonnell asked researchers present “whether they thought ‘there was some
scientific validity’” to the supplement and “‘whether or not there was any reason to explore [studies of the
supplement] further.’” Id. at 2363 (record cite omitted). When Williams directly asked Governor McDonnell
“whether he would support funding for the research studies, Governor McDonnell ‘very politely’ replied, ‘I have
limited decision-making power in this area.’” Id. (record cite omitted).

4

8

App. 31

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 9 of 65. PageID #: 33139

Virginia government officials,” “hosting, and . . . attending, events” to promote Williams’s
business, and “recommending that senior government officials in the [Governor’s Office] meet
with” executives from Williams’s company. Id. at 2365-66. At trial, the judge instructed the jury
that an “official act” could include acts “in furtherance of longer-term goals” or “in a series of
steps to exercise influence or achieve an end.” Id. at 2366 (additional quotation marks and record
cites omitted).
The Supreme Court vacated Governor McDonnell’s conviction. Id. at 2375. In so doing,
the Court adopted “a more bounded interpretation of ‘official act[,]’” and found that “[u]nder
that interpretation, setting up a meeting, calling another public official, or hosting an event does
not, standing alone, qualify as an ‘official act.’” Id. at 2368. With respect to Governor
McDonnell’s actions, the Court held that “[s]imply expressing support for the research study at a
meeting, event, or call—or sending a subordinate to such a meeting, event, or call—similarly
does not qualify as a decision or action on the study, as long as the public official does not intend
to exert pressure on another official or provide advice, knowing or intending such advice to form
the basis for an ‘official act.’” Id. at 2371. “Otherwise,” the Court explained, “if every action
somehow related to the research study were an ‘official act,’ the requirement that the public
official make a decision or take an action on that study, or agree to do so, would be
meaningless.” Id.
Nevertheless, the Supreme Court noted that,
Of course, this is not to say that setting up a meeting, hosting an event, or making
a phone call is always an innocent act, or is irrelevant, in cases like this one. If an
official sets up a meeting, hosts an event, or makes a phone call on a question or
matter that is or could be pending before another official, that could serve as
evidence of an agreement to take an official act. A jury could conclude, for
9

App. 32

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 10 of 65. PageID #: 33140

example, that the official was attempting to pressure or advise another official on
a pending matter. And if the official agreed to exert that pressure or give that
advice in exchange for a thing of value, that would be illegal.
Id.
Instead, the Court found that the text of the federal bribery statute, § 201(a)(3), sets forth
two requirements for an “official act”:
First, the Government must identify a “question, matter, cause, suit, proceeding or
controversy” that “may at any time be pending” or “may by law be brought”
before a public official. Second, the Government must prove that the public
official made a decision or took an action “on” that question, matter, cause, suit,
proceeding, or controversy, or agreed to do so.
Id. at 2368.
The Court explained that the words “‘cause,’ ‘suit,’ ‘proceeding’ and ‘controversy’ []
connote a formal exercise of governmental power, such as a lawsuit, hearing, or administrative
determination.” Id. The Court interpreted “pending” and “may by law be brought” to indicate a
matter that is “relatively circumscribed—the kind of thing that can be put on an agenda, tracked
for progress, and then checked off as complete.” Id. at 2369. The Court interpreted “may by law
be brought” as conveying “something within the specific duties of an official’s position—the
function conferred by the authority of his office.” Id. (emphasis in original). Finally, the Court
stated “‘any’ conveys that the matter may be pending either before the public official who is
performing the official act, or before another public official.” Id.
The Court provided examples of qualifying official acts including (1) “a decision or
action to initiate a research study[,]” or (2) a “decision or action on a qualifying step, such as
narrowing down the list of potential research topics[,]” or (3) “using his official position to exert
pressure on another official to perform an ‘official act[,]’” or (4) “a public official us[ing] his
official position to provide advice to another official, knowing or intending that such advice will
10

App. 33

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 11 of 65. PageID #: 33141

form the basis for an ‘official act’ by another official[.]” Id. at 2370 (emphasis in original). The
Court also observed that “a public official is not required to actually make a decision or take an
action . . . it is enough that the official agree to do so.” Id. at 2370-71.
Applying these terms and concepts to the facts in the case before it, the Court held that
the jury instructions in Governor McDonnell’s trial on the meaning of “official act” were
inadequate. Id. at 2375. The Court concluded that the jury may not have relied on the properly
narrowed definition of “official act” and may have instead believed that Governor McDonnell’s
efforts to schedule a meeting for Williams, alone, could have constituted an “official act.” Id. at
2374-75.
Dimora points to the Second Circuit’s decision in United States v. Silver, wherein it
applied the teachings of McDonnell to find deficient the definition of “official act” in the district
court’s charge in the trial of the former speaker of the New York State Assembly, Sheldon
Silver. United States v. Silver, 864 F.3d 102, 119 (2d Cir. 2017). There, the district court charged
Silver’s jury that an official act was “‘any action taken or to be taken under color of official
authority[.]’” Id. at 106. The Second Circuit reversed the former speaker’s convictions for Hobbs
Act extortion and honest services fraud and remanded, reasoning that “a rational jury with a
proper jury instruction could have found that Silver’s letter offering general assistance with an
event occurring in his district—absent any actual ‘exert[ion] [of] pressure’ on other officials
regarding a particular matter under their consideration—did not satisfy the standards for an

11

App. 34

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 12 of 65. PageID #: 33142

official act as defined by McDonnell.” 5 Id. at 120.
Dimora argues that, like the defendants in McDonnell and Silver, there is a risk that his
jury may have convicted him based on conduct that no longer qualifies as official acts, such as
setting up a meeting. The government concedes that, in the wake of McDonnell, setting up a
meeting, without more, is insufficient to support a conviction for Hobbs Act extortion or honest
services fraud. But, it is the government’s position that, in Dimora’s case, there was always
more. (Opp’n at 32679.) Specifically, the government underscores the fact that Dimora’s
“official acts were more than vague offers of assistance, or job recommendations without
[Dimora] pressuring other public officials, or just taking a public position on a matter.” (Id. at
32683.) Rather, the government maintains that the evidence offered at trial convincingly
established that Dimora corruptly and knowingly took actions, or exerted substantial pressure on
other public officials to take actions, that qualify as “official acts,” even after McDonnell.
III. STANDARD OF REVIEW
A prisoner who moves to vacate his sentence under § 2255 must show that the sentence
was imposed in violation of the Constitution or laws of the United States, that the court was
without jurisdiction to impose such a sentence, that the sentence was in excess of the maximum

The event was a charity race that one of Silver’s constituents, a physician who agreed to send Silver’s law firm
referrals for Mesothelioma actions, was sponsoring. Silver, 864 F.3d at 120. The evidence at trial demonstrated that
Silver offered to help the physician “‘navigate the process [of getting permits for the event] if needed.’” Id. at
120.The other two acts Silver was alleged to have assisted the physician with involved helping the doctor’s son
secure a job with a nonprofit organization receiving federal funds and obtaining an assembly resolution honoring the
physician. Id. at 120-21. Of the three acts, the court concluded that only the assembly resolution still qualified as an
“official act” after McDonnell. Id. at 120.
5

12

App. 35

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 13 of 65. PageID #: 33143

authorized by law, or that it is otherwise subject to collateral attack. 28 U.S.C. § 2255. To prevail
under § 2255, “a petitioner must demonstrate the existence of an error of constitutional
magnitude which had a substantial and injurious effect or influence on the guilty plea or the
jury’s verdict.” Griffin v. United States, 330 F.3d 733, 736 (6th Cir. 2003) (citing Brecht v.
Abrahamson, 507 U.S. 619, 637, 113 S. Ct. 1710, 123 L. Ed. 2d 353 (1993)). “Relief is
warranted only where a petitioner has shown ‘a fundamental defect which inherently results in a
complete miscarriage of justice.’” Id. (quoting Davis v. United States, 417 U.S. 333, 346, 94 S.
Ct. 2298, 41 L. Ed. 2d 109 (1974)).
The movant bears the burden of articulating sufficient facts to state a viable claim for
relief under § 2255. McQueen v. United States, 58 F. App’x 73, 76 (6th Cir. 2003) (per curiam).
Vague and conclusory claims that are not substantiated by allegations of specific facts with some
probability of verity are not enough to warrant relief. A § 2255 motion may be dismissed if it
only makes conclusory statements without substantiating allegations of specific facts and fails to
state a claim cognizable under § 2255. Green v. Wingo, 454 F.2d 52, 53 (6th Cir. 1972);
O’Malley v. United States, 285 F.2d 733, 735 (6th Cir. 1961).
A.

Procedural Default

The doctrine of procedural default bars a habeas petitioner from raising previously
waived claims on collateral review. A petitioner must show “cause” why he did not previously
object and “‘actual prejudice’ resulting from the error” before he will be allowed to raise such a
claim in a habeas proceeding. Napier v. United States, 159 F.3d 956, 961 (6th Cir. 1998) (citing
United States v. Frady, 456 U.S. 152, 167-68, 102 S. Ct. 1584, 71 L. Ed. 2d 816 (1982)); see

13

App. 36

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 14 of 65. PageID #: 33144

Bousley v. United States, 523 U.S. 614, 622, 118 S. Ct. 1604, 140 L. Ed. 2d 828 (1998) (citations
omitted). A petitioner procedurally defaults on a challenge to a jury instruction if he (1) fails to
object to the jury instruction as required by Fed. R. Crim. P. 30(d), or (2) fails to raise the issue
on direct appeal. See Frady, 456 U.S. at 166-68; Fed. R. Crim. P. 30(d) (“A party who objects to
any portion of the instructions or to a failure to give a requested instruction must inform the court
of the specific objection and the grounds for the objection before the jury retires to deliberate. . . .
Failure to object in accordance with this rule precludes appellate review, except as permitted
under Rule 52(b).”).
The government does not contend, nor could it, that Dimora failed to raise the issue of the
definition of “official act” at trial. Indeed, this issue was the subject of much debate during the
charging conference and at trial, resulting in the Court giving several (though not all) requested
instructions relative to “official acts” under the Hobbs Act. Instead, it is the government’s
position that Dimora has procedurally defaulted on all counts because he failed to raise the
sufficiency of the Court’s instruction of “official act” on direct appeal. (Opp’n at 32669.) In
support, the government cites to the fact that the Sixth Circuit limited its discussion of Dimora’s
challenge to the Court’s jury instructions to the distinction between giving gifts and receiving
bribes. (Id. at 32670.) The government reasons that, “[t]he Sixth Circuit did not characterize
[Dimora’s] arguments as raising error in the definition of ‘official act[.]’” (Id.)
Yet, it is clear from the briefing on appeal that Dimora sufficiently preserved the issue for
further review, arguing that “[t]he district court also gave an expansive and confusing definition
of ‘official act,’ while refusing to give proposed instructions that explained the limits on what
constitutes an official act.” (Doc. No. 1189-1 (Opening Appellate Brief) at 32950; see Doc. No.
1189-2 (Appellate Reply Brief) at 32990-91 [the jury instructions “expanded the definition of
14

App. 37

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 15 of 65. PageID #: 33145

official act beyond the limits set by law”].) In particular, Dimora complained on appeal that the
district court refused to give instructions that would have informed the jury (1) that it was not an
official act for a public official to merely introduce a giver to other decision-makers, or (2) that
an official act did not involve merely encouraging subordinates to assist a giver. (Opening
Appellate Brief at 32951.) Accordingly, the Court finds that Dimora did not procedurally default
because he raised the essence of the McDonnell “official act” issue throughout the prosecution
and on appeal. 6 See, e.g., United States v. Skelos, 707 F. App’x 733, 736 (2d Cir. 2017) (“We are
satisfied that defendants adequately preserved this challenge [to the definition of “official act”]
in the district court even though they did not propose specific alternative language.”).
B.

Harmless Error Standard

Because Dimora did not procedurally default on this claim, he is entitled to rely on the
harmless error standard. However, the harmless error standard as applied to § 2255 proceedings
is more favorable to the government than the harmless error standard on direct review. See
United States v. Jefferson, 289 F. Supp. 3d 717, 734 (E.D. Va. 2017) (“Where, as here, a
defendant mounts a collateral attack on a jury instruction that erroneously instructs on an element
of an offense, the courts in this circuit apply a less-stringent ‘harmless error’ standard than that

In so finding, the Court also rejects the government’s alternative argument that, if Dimora did raise the issue, he
did so only as to Counts 9, 11, and 12-13 of the Indictment. (Opp’n at 32673.) The government reasons that Dimora
only preserved the issue, at best, as to these four counts because he specifically argued that “applying the correct law
that the district court omitted from its jury instructions, four counts must be reversed and dismissed based on
insufficient evidence.” (Id., citing Opening Appellate Brief at 32951.) “In other words,” the government reasons,
“on appeal [Dimora] conceded he was not prejudiced by the jury instructions on 28 of the 32 counts.” (Id. at 32673.)
The Court rejects the government’s hypertechnical view of preservation, finding that Dimora properly informed the
Sixth Circuit that he was challenging this Court’s interpretation of the term “official act.” See McDonnell, 136 S. Ct.
at 2367 (“The issue in this case is the proper interpretation of the term, ‘official act.’”). No more was needed to
preserve the issue, and Dimora may avail himself of McDonnell on the instant § 2255 motion. See generally United
States v. Hassan, 578 F.3d 108, 129 (2d Cir. 2008) (“[T]he substance of the claim now being raised on appeal was
squarely raised below: counsel made it clear to the trial court that he objected to the charge because he believed it
permitted the jury to convict” based on a finding not permitted by law.)
6

15

App. 38

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 16 of 65. PageID #: 33146

applicable on direct appeal.”) “To warrant habeas relief because of incorrect jury instructions,
[Dimora] must show that the instructions, as a whole, were so infirm that they rendered the entire
trial fundamentally unfair.” Murr v. United States, 200 F.3d 895, 906 (6th Cir. 2000) (“If this
Court is sure that the error had no or very slight effect or influence on the jury’s decision, the
verdict and judgment must stand.”) (citing, among authority, Estelle v. McGuire, 502 U.S. 62,
72, 112 S. Ct. 475, 116 L. Ed. 2d 385 (1991)). “There must be more than a ‘reasonable
possibility’ that the error was harmful. . . . [And] the court must find that the defendant was
actually prejudiced by the error.” Davis v. Ayala, -- U.S. --, 135 S. Ct. 2187, 2198, 192 L. Ed. 2d
323 (2015) (quoting, among authority, Brecht v. Abrahamson, 507 U.S. 619, 637, 113 S. Ct.
1710, 123 L. Ed. 2d 353 (1993) (some quotation marks omitted)). In making this determination,
the Court must apply the Kotteakos standard, which considers whether the error “‘had substantial
and injurious effect or influence in determining the jury’s verdict.’” Brecht, 507 U.S. at 623
(quoting Kotteakos v. United States, 328 U.S. 750, 776, 66 S. Ct. 1239, 90 L. Ed. 1557 (1946)).
Under this more deferential standard, even a jury “instruction that omits an element of the
offense” does not “necessarily render a trial fundamentally unfair[.]” Neder v. United States, 527
U.S. 1, 8, 119 S. Ct. 1827, 144 L. Ed. 2d 35 (1999) (emphasis added). Nevertheless, “[t]he
inquiry cannot be merely whether there was enough to support the result, apart from the phase
affected by the error[.]” Kotteakos, 328 U.S. at 765. Rather, if “one is left in grave doubt . . .
whether the error itself had substantial influence” on the jury’s verdict, then “the conviction
cannot stand.” Id. In other words, if “in the judge’s mind, the matter is so evenly balanced that he
feels himself in virtual equipoise as to the harmlessness of the error,” then the standard is met

16

App. 39

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 17 of 65. PageID #: 33147

and the matter must be remanded. O’Neal v. McAninch, 513 U.S. 432, 435, 115 S. Ct. 992, 130
L. Ed. 2d 947 (1995). Given the contours of this standard, the question of whether an instruction
had a substantial and injurious effect on a jury’s verdict must be answered “in light of the
evidence presented” at trial. United States v. Smith, 723 F.3d 510, 517 (4th Cir. 2013).
C.

Evidentiary Hearing

In an action to vacate or correct the sentence, a court is required to grant a hearing to
determine the issues and make findings and conclusions of law “[u]nless the motion and the files
and records of the case conclusively show that the prisoner is entitled to no relief . . . .” 28
U.S.C. § 2255(b). No evidentiary hearing is required if the prisoner’s allegations “cannot be
accepted as true because they are contradicted by the record, inherently incredible, or
conclusions rather than statements of fact.” Engelen v. United States, 68 F.3d 238, 240 (8th Cir.
1995) (quoted in Arrendondo v. United States, 178 F.3d 778, 782 (6th Cir. 1999)); cf. Valentine
v. United States, 488 F.3d 325, 334 (6th Cir. 2007) (finding that the burden is met where the
prisoner “offers more than a mere assertion . . . he presents a factual narrative of the events that
is neither contradicted by the record nor ‘inherently incredible’”). Where, as here, the judge
considering the § 2255 motion also conducted the trial, the judge may rely on his or her
recollections of the trial. Blanton v. United States, 94 F.3d 227, 235 (6th Cir. 1996) (citing
Blackledge v. Allison, 431 U.S. 63, 74 n.4, 97 S. Ct. 1621, 52 L. Ed. 2d 136 (1977)).
Here, the parties agree that a hearing is unnecessary because Dimora makes no factual
allegations outside the record. (Opp’n at 32784; Reply at 32891.) Rather, as previously observed,
the appropriate inquiry in this case is whether the jury instructions were in error, and, if so,
whether any such error had a substantial and injurious effect on the jury’s verdict. Inasmuch as
the undersigned presided over the trial of this matter and is intimately familiar with the record,
17

App. 40

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 18 of 65. PageID #: 33148

the Court agrees that an evidentiary hearing is unnecessary. Such an inquiry is properly confined
to a review of the record. See generally Smith, 723 F.3d at 517.
IV. COUNTS UNAFFECTED BY MCDONNELL
Before the Court can measure its charge against current federal bribery law, it is
important to identify the counts and schemes for which McDonnell has no application. Dimora
concedes that Count 28 of the indictment, 7 charging obstruction of justice, was unaffected by the
ruling in McDonnell. (Mot. at 32286, 32298.) Additionally, the ruling in McDonnell has no
bearing on Count 29, in which Dimora was convicted of destruction, alteration, or falsification of
records in a federal investigation in violation of 18 U.S.C. §§ 1519 & 2. Like the related crime of
obstruction of justice, destruction or falsification of records under § 1519 does not require the
commission of an “official act.” See also United States v. Kernell, 667 F.3d 746, 756 (6th Cir.
2012) (Section 1519 required the government to prove that the defendant (1) “knowingly deleted
or altered information . . . (2) with the intent to impede, obstruct or influence an investigation
that (3) he contemplated at the time of the deletion or alteration.”).
The ruling in McDonnell also does not reach the crime of bribery concerning programs
receiving federal funds under 18 U.S.C. § 666, and, accordingly, Counts 4, 5, 6, 17, 18, and 19
do not factor into the McDonnell analysis. Again, McDonnell concerned the meaning of “official
act” as used in the federal bribery statute, 18 U.S.C. § 201(a)(3). Section 666 is “more
expansive” than § 201(a)(3). United States v. Boyland, 862 F.3d 279, 291 (2d Cir. 2017). Section
666 prohibits individuals from “solicit[ing] . . . anything of value from any person, intending to
be influenced or rewarded in connection with any business, transaction, or series of transactions
of [an] organization, government, or agency.” Id. (quoting 18 U.S.C. § 666(a)(1)(B) (emphasis
18

App. 41

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 19 of 65. PageID #: 33149

added by the Second Circuit)); see United States v. Suhl, 885 F.3d 1106, 1112 (8th Cir. 2018)
(“Section 666 . . . does not include the term ‘official act.’”). Accordingly, courts have found the
ruling in McDonnell inapplicable to bribery under § 666. 8 Boyland, 862 F.3d at 291; see also
United States v. Ferguson, No. 10-20403, 2018 WL 1071743, at *4 (E.D. Mich. Feb. 27, 2018)
(“McDonnell does not apply to 18 U.S.C. § 666, which does not include the term ‘official act’ or
any similar term.”) (collecting cases). 9
Finally, the Court finds that Counts 2, 9, 16 and 32 remain undisturbed by McDonnell. To
be sure, these counts charged Dimora with conspiracy to commit honest services mail and/or
wire fraud, a crime for which the commission of an official act is required. See Suhl, 885 F.3d at
1112 (applying McDonnell’s definition of “official act” to conviction for honest services fraud);
Boyland, 862 F.3d at 290 (similar). Nonetheless, the conspiracies charged in Dimora’s
indictment charged two objects, the first being traditional money or property fraud. The jury
returned special verdicts finding Dimora guilty on the above counts, for each count specifying
that Dimora was guilty of both of the objects: conspiracy to commit money or property fraud and
conspiring to commit honest services fraud. (See Doc. No. 738 (Dimora Jury Verdicts) at 17117-

7

By “indictment,” the Court refers to the Third Superseding Indictment, filed September 7, 2011. (Doc. No. 444.)

For similar reasons, the Court finds that McDonnell has no impact on the state bribery predicates contained in the
RICO conspiracy charged in Count 1. As part of the pattern of racketeering identified in Count 1, Dimora and his
co-conspirators were charged with a conspiracy to commit “multiple acts involving bribery chargeable under . . .
Ohio Revised Code Section 2921.02 (Bribery).” (Indictment at 9642.) Dimora does not argue that McDonnell
applies to state law bribery, nor does he cite any authority for that proposition. As previously noted, McDonnell
interpreted the definition of official act in the federal bribery statute, not Ohio Rev. Code § 2921.02, which does not
contain the phrase “official act.”
8

Dimora complains that the term “official act” appeared in a section of the Court’s instructions relating to general
bribery terms and concepts. While this is true, the Court also specifically instructed the jury separately on the
elements for each statute, including § 666, and even bolded the elements for each offense (which is significant
because each juror was given a copy of the jury instructions). Dimora has failed to explain, in light of these
attendant circumstances, how he was prejudiced by the Court’s discussion of general bribery concepts, or how the
jury’s unlikely consideration of an additional element, such as an official act, would have prejudiced him.
9

19

App. 42

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 20 of 65. PageID #: 33150

18, 17125-26, 17133-34.) 10
With respect to traditional money or property fraud, the jury was only required to find
that Dimora conspired to defraud and to obtain money and property by means of a false
statement or material omission. (Doc. No. 735-1 (Jury Instructions [“JI”]) at 17018-17022.)
While Dimora argues that some of the evidence in these alternatively pleaded fraud claims
overlapped with the bribery counts, the fact remains that an official act is not an element of
traditional money and property fraud, and the jury was properly so instructed. See United States
v. Frost, 125 F.3d 346, 358-59 (6th Cir. 1997) (setting forth the elements of the substantive
crime of mail fraud); Sixth Circuit Pattern Instruction 10.01 (mail fraud); Sixth Circuit Pattern
Instruction 10.02 (wire fraud); see also Doc. No. 1045, Tr. Jury Trial Vol. 36 (Government
Closing Argument [“Gov’t Close”]), at 30141 [“Mail fraud without honest services has nothing
whatsoever to do with bribery.”]; 30181 [similar].)
Dimora’s reliance on United States v. Wright, 665 F.3d 560, 576-77 (3d Cir. 2012) in
support of his position that McDonnell requires these alternatively pleaded conspiracies to be set

10
Dimora was not charged in Count 32 but the fraud charged against his co-conspirator and co-defendant, Gabor,
forms one of the predicate acts for Count 1, in which Dimora was charged with and convicted of RICO conspiracy.
(See Doc. No. 739 (Gabor Jury Verdicts) at 17199-20.)

20

App. 43

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 21 of 65. PageID #: 33151

aside is misplaced. There, the court held that the defendant’s honest services mail fraud
convictions, based in part on a conflict-of-interest theory, were subject to reversal in light of the
Supreme Court’s ruling in Skilling v. United States, -- U.S. --, 130 S. Ct. 2896, 177 L. Ed. 2d
619 (2010). Wright, 665 F.3d at 567. The court went on to hold that the traditional mail fraud
counts were also subject to reversal because of prejudicial spillover. Applying a two-step test, the
court found that much of the evidence relating to the honest services counts would have been
inadmissible in a trial limited to the traditional mail fraud counts and that this inadmissible
evidence was prejudicial. Id. at 575-76.
In conclusory fashion, Dimora suggests that the traditional money and property fraud
counts were tainted by prejudicial spillover. Such perfunctory allegations are insufficient to
demonstrate the “substantial prejudice” needed to show prejudicial spillover under Sixth Circuit
precident. See United States v. Tran, 433 F.3d 472, 478 (6th Cir. 2006) (citing United States v.
Johnson, 763 F.2d 773, 777 (6th Cir. 1985)). Dimora has failed to identify with particularity any
evidence that would have been inadmissible in a hypothetical trial on traditional money and
property mail fraud alone, let alone any evidence the admission of which would have resulted in
substantial prejudice. Accordingly, there can be no prejudicial spillover even if the honest
services objects of the conspiracy were found defective under McDonnell. In addition, as will be
set forth below, neither the Court’s charge, nor the official acts established at trial, run afoul of
McDonnell.
V. THIS COURT’S CHARGE IN LIGHT OF MCDONNELL
This brings the Court to its instruction on “official act.” Specifically, this Court instructed
Dimora’s jury that:
21

App. 44

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 22 of 65. PageID #: 33152

The term “official act” includes any decision or action on any question, matter,
cause, suit, proceeding or controversy, which may at any time be pending, or
which may by law be brought before any public official, in such official’s official
capacity, or in such official’s place of trust or profit. Official acts include the
decisions or actions generally expected of the public official. In addition, “official
action” includes the exercise of both formal official influence (such a public
official’s votes) and informal official influence (such as a public official’s
influence on other public officials). The term “official act” does not include
actions taken in a personal or nonofficial capacity, such as actions taken as a
political party leader.
(JI at 16988-89; see Doc. No. 1044, Tr. Jury Trial Vol. 35 (Charge), at 30007-08.) As will be
seen below, when combined with other instructions, the charge as a whole did not suffer from the
same over-inclusiveness as the instructions in McDonnell and Silver. Dimora’s motion, therefore,
fails for this reason alone. See, e.g., United States v. Woodward, No. 95-10234-DPW, 2017 WL
4684000, at *9 (D. Mass. Oct. 18, 2017)
McDonnell requires three instructions to be given when a court defines “official act.” See
McDonnell, 136 S. Ct. at 2372-74. According to McDonnell, the jury must first be advised that
an “official act” is a decision or action on a “‘question, matter, cause, suit, proceeding or
controversy’ involving the formal exercise of governmental power.” Id. at 2374. The Court
satisfied this requirement when it instructed the jury that the official act had to involve a
“question, matter, cause, suit, proceeding or controversy, which may at any time be pending,”
and, that “[t]he term ‘official act’ does not include actions taken in a personal capacity or
nonofficial capacity, such as actions taken as a political party leader.” (Doc. No. 144, Tr. Jury
Trial Vol. 35 (Charge), at 30007-08.) The combination of the two instructions ensured that the
jury did not consider matters that were informal, like a “typical meeting, call, or event[.]”
McDonnell, 136 S. Ct. at 2374.
While the Court advised Dimora’s jury that official acts could include both “formal” and
22

App. 45

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 23 of 65. PageID #: 33153

“informal” acts, it used these terms to differentiate between actions taken directly by the public
official, and those actions designed to influence another public official into taking an official act.
Specifically, this Court explained that “‘official action’ includes the exercise of both formal
official influence (such as a public official’s votes) and informal official influence (such as a
public official’s influence on other public officials).” (JI at 16989; see Doc. No. 1044, Tr. Jury
Trial Vol. 35 (Charge), at 30008) Taken as a whole, this instruction aligns closely with the
Supreme Court’s limits on the definition of official act. McDonnell, 136 S. Ct. at 2372 (an
official act “may include using [an] official position to exert pressure on another official to
perform an ‘official act,’ or to advise another official, knowing or intending that such advice will
form the basis for an ‘official act’ by another official”).
The Court in McDonnell found that the district court should also have instructed the jury
that the pertinent “‘question, matter, cause, suit, proceeding or controversy’ must be something
specific and focused that is ‘pending’ or ‘may by law be brought before any public official,’ such
as the question whether to initiate the research studies.” McDonnell, 136 S. Ct. at 2374. This
Court satisfied this requirement when it instructed the jury that the question, matter, cause, suit,
proceeding or controversy was something that “may at any time be pending, or which may by
law be brought before any public official, in such official’s official capacity, or in such official’s
place of trust or profit[.]” (JI at 16988-89; see Doc. No. 1044, Tr. Jury Trial Vol. 35 (Charge), at
30007-08.) This instruction informed the jury that it should limit its consideration to acts that
involved “the kind of thing that can be put on an agenda, tracked for progress, and then checked
off as complete.” McDonnell, 136 S. Ct. at 2369.
Finally, the Supreme Court found that the district court should have instructed
McDonnell’s jury that “merely arranging a meeting or hosting an event to discuss a matter does
23

App. 46

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 24 of 65. PageID #: 33154

not count as a decision or action on that matter.” Id. at 2375. Because the Court did not anticipate
the circumstances surrounding the ruling in McDonnell, it did not give this third instruction. Still,
the Court gave limiting instructions not given in McDonnell that ensured that the jury did not
convict on a theory that Dimora’s relationships with his bribe payers were just innocent lobbying
relationships, general efforts to respond to the needs and interests of his constituents, or pro
forma acts routinely performed by public officials. In addition to requiring the “official act” to be
associated with a pending “question, matter, cause, suit, or proceeding or controversy,” and
informing that an official act can involve pressuring another public official to perform an official
action, the Court advised the jury that: (1) “the term ‘official act’ does not include actions taken
in a personal or non-official capacity, such as actions taken as a political party leader”; (2)
“bribery or kickbacks are not proved if the benefit is intended to be, and is accepted as, simply an
effort to buy favor or generalized goodwill from a public official who either has been, is, or may
at some unknown, unspecified later time, in a position to act favorably on the giver’s interests[;]”
(3) “you may consider the official actions’ lawfulness, desirability, or benefit to the public
welfare, just as you would any other circumstances in the case, as it may bear upon the intent of
a defendant in accepting a thing of value[;]” and (4) “property given with the sole motive of
cultivating friendship is not a bribe.” (JI at 16987-89.) Together, these instructions made clear
that the official act had to be something more than non-specific benefits to the bribe payer, such
as generalized goodwill or the cultivation of friendship, and that they had to be actions Dimora
took in his official capacity, and not personal or political acts.
In fact, these instructions permitted Dimora’s trial counsel to repeatedly argue, without
objection, that setting up meetings, placing phone calls, and directing ministerial functions are
not official acts for purposes of the Hobbs Act. (See Doc. No. 1045, Tr. Jury Trial Vol. 36
24

App. 47

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 25 of 65. PageID #: 33155

(Defense Close), at 30274 [“He set up meetings. That’s what commissioners are supposed to
do.”]; Id. at 30305 [“Simply putting a piece of paper, a resume on somebody’s chair is not
official action. Take a look at the instructions. It defines it for you. It uses terms like
‘influence[.]’”]; Id. at 30340 [“Don’t be fooled. Steve Pumper knew what he was getting with a
phone call to [Dimora] was a meeting, a meeting where he would explore what loans are
available. That’s not influence. That’s not official action. Look at the definition. There’s no
influence getting a meeting. There’s no influence putting him in touch with the person who could
tell what programs are available.”]; Id. at 30353 [In regard to the hiring of Gina Coppers, “This
conversation [Dimora] had with Renee Strong when the resume first came in, ‘Just throw it on
my chair.’ . . . [T]hat’s not an official act. That’s not improper influence. Look at the
definition.”].)
Dimora notes that government counsel countered with arguments that setting up a
meeting, making a phone call, or directing a clerical task was an official act for purposes of
Hobbs Act and honest services fraud. Like his counsel’s arguments, these too were offered
without objection. Still, the Court instructed the jury on multiple occasions, including during the
parties’ closing arguments, that the Court’s instructions on the law controlled. (See, e.g., Doc.
No. 1046, Tr. Jury Trial Vol. 37 (Rebuttal), at 30495 [“Well, what I will do is I will say to the
jurors that the court gives you the law in the case, and to the extent counsel, any counsel, have
commented on what they believe the law is, in the end, you apply what this court has instructed
you on the law.”]; see also Doc. No. 1044, Tr. Jury Trial Vol. 35 (Charge), at 29982 [“The
lawyers may talk about the law during their arguments. But if what they say is different from
what I say, you must follow what I say. What I say about the law controls.”].) The jury is
presumed to have followed these instructions. See United States v. Taylor, 814 F.3d 340, 365
25

App. 48

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 26 of 65. PageID #: 33156

(6th Cir. 2016) (citing Penry v. Johnson, 532 U.S. 782, 799, 121 S. Ct. 1910, 150 L. Ed. 2d 9
(2001)). Nevertheless, the record clearly reflects that both Dimora and the government were
permitted to make their arguments relative to whether the evidence established the existence of
an official act. See United States v. Clarke, 842 F.3d 288, 296 (4th Cir. 2016) (defendant failed
to demonstrate actual prejudice due, in part, to his ability to make “‘all arguments essential to his
case’”).
Even though the trial in this matter was conducted more than four years before the ruling
in McDonnell, the Court finds that its charge “sufficiently captured the concerns later addressed
in McDonnell.” Woodward, 2017 WL 4684000, at *9. Notwithstanding this conclusion, and in an
abundance of caution, the Court shall engage in a count-by-count analysis of the evidence
offered at trial. Such an analysis demonstrates that the instructions actually given in this case
continue to support the convictions from which Dimora seeks relief. Even if these instructions
were technically in error, however, this same analysis shows that any such error was harmless
because, with few exceptions, the conduct which underlies Dimora’s convictions qualifies as
official acts.

26

App. 49

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 27 of 65. PageID #: 33157

VI. ANALYSIS OF THE EVIDENCE OFFERED AT TRIAL
A.

Appropriateness of a Count-by-Count Analysis

In the wake of McDonnell, courts have engaged in a count-by-count, or scheme-byscheme, analysis of the evidence in order to determine whether any error in instructing on the
term “official act” resulted in substantial and injurious harm to the defendant. See, e.g., Jefferson,
289 F. Supp. 3d at 736-44; see also Boyland, 862 F.3d at 290-91 (following similar approach to
evaluate harmless error on direct appeal). Dimora complains that such an approach is
inappropriate here because any error in the charge infected the entire case, bleeding into the other
counts not directly impacted by the ruling in McDonnell. The Court disagrees, and finds that, for
a number of reasons, the circumstances of this case make it an ideal candidate for such an
approach.
First, the Court permitted the government’s lead investigating agent to testify in
segments. See United States v. Dimora, 843 F. Supp. 2d 799, 822 (N.D. Ohio 2012). As each
new scheme was introduced, FBI Special Agent Michael Massie (or in some instances FBI S.A.
Christine Oliver) testified to the details of the investigation and identified the evidence relevant
to that scheme. The government also called fact witnesses and offered evidence relative to that
scheme before moving on to the next scheme. Even the government’s trial exhibits were labeled
in such a way that they corresponded to the schemes in which they were being offered.
In closing arguments, counsel for both sides presented their arguments in terms of the
schemes and corresponding counts. The Court’s instructions were also separated by counts and
even included a chart that identified each count and corresponding scheme. (JI at 16979-81.) The
instructions further directed the jury to consider each count separately, and, as evidence that the
27

App. 50

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 28 of 65. PageID #: 33158

jury was able to appreciate and follow this directive, the jury returned a “not guilty” verdict as to
the crime charged against Dimora in Count 30. (Id. at 16974-75; see Dimora Jury Verdicts at
17149.)
B.

The Evidence of Official Acts 11

Counts 2 and 3
Beginning with Count 2 (conspiracy to commit honest services and money and property
mail fraud) and Count 3 (conspiracy to commit Hobbs Act extortion), the evidence at trial
established that, between February and April 2008, using Kevin Kelley as an intermediary,
Alternatives Agency (“AA”)—a halfway house providing services for the Cuyahoga County
Common Pleas Court—bribed Dimora and Russo by helping to fund the Las Vegas trip to which
Kleem also contributed. In exchange, Dimora voted on several funding initiatives favorable to
AA.
There was considerable testimony offered at trial as to this scheme and the votes Dimora
ultimately cast in support of funding for AA. (See, e.g., Doc. No. 1016, Tr. Jury Trial Vol. 9
(Massie), at 23913-16 [citing Gov’t Ex. 259, 1-3-08 Dimora Vote to extend funding for AA]; Id.
(Massie), at 23909-12 [citing Gov’t Ex. 289, Agenda Action].) Of course, the casting of votes
designed to award government contacts clearly meets the two-part McDonnell definition of
“official act.” First, it is “‘the kind of thing that can be put on an agenda, tracked for progress,
and then checked off as complete.’” See Miserendino v. United States, 307 F. Supp. 3d 480, 490
(E.D. Va. 2018) (quoting McDonnell, 136 S. Ct. at 2369). Second, voting obviously requires the
Though the Court has found that the counts charging bribery concerning programs receiving federal funds, honest
services fraud, and state bribery are unaffected by McDonnell, the Court includes a discussion of the official acts
supporting these claims, as well.
11

28

App. 51

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 29 of 65. PageID #: 33159

taking of an action. See McDonnell, 136 S. Ct. at 2368 (Step 2 requires the government to prove
that the public official made a “decision” or took “an action” on the identified “question, matter,
cause, suit, proceeding or controversy.”).
There was also evidence that Dimora performed a number of qualifying steps that led to
his eventual votes on funding for AA. On March 20, 2008, Dimora got “all the power brokers in
the county that needed to make decisions on that board and care line item [for the benefit of
halfway houses], he was able to get everybody there so we can discuss it and see if we could go
forward with this contract—project. . . . [Dimora] said [at the meeting that] it was a good idea
and it definitely needed further consideration.” (Doc. No. 1016, Tr. Jury Trial Vol. 9 (Schuman),
at 24057-59.) AA’s director, Brian Schuman, testified that he believed his ability to get Dimora
at that meeting with all of the county people there, and representatives of the other halfway
houses, gave him the advantage in competing against them for contracts. “They know we [AA]
got the juice, we got [Dimora] in the room. So it tells everyone else [the competing agencies],
back off.” (Id. at 24059.) Kelley similarly testified that he did not believe that county funding for
AA’s programs could have been restored without Dimora’s assistance “[b]ecause the system, the
way it worked at Cuyahoga County, their clout [Dimora’s and Russo’s] meant a lot more than
trying to go through the bureaucracy that was set in place.” (Doc. No. 1024, Tr. Jury Trial Vol.
15 (Kelley), at 25840; see id. at 25859 [Russo was “very clear” on “[t]he amount of bribes [he
and Dimora] were looking for [sic] restoring the funds [for AA].”].)
The evidence further demonstrated that Dimora volunteered to go to a meeting with the
common pleas judges to convince them to use AA’s services. In a wiretapped conversation,
Dimora indicated that he and the other commissioners needed to “convince” the judges to utilize
29

App. 52

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 30 of 65. PageID #: 33160

AA’s programs. He also placed calls to Judge Pokorney, the Court Administrator, and Chief
Judge McDonnell, who was in charge of the court’s budget, to pressure them not to cut funding
for the halfway house program. (Doc. No. 1017, Tr. Jury Trial Vol. 10 (Pokorny), at 24139-40;
Id. (McDonnell), at 24160-61.) McDonnell testified that, as a result of the call from Dimora, she
decided to approve half of the funding for the coming year. (Id. (McDonnell), at 24160-61.) On
April 17, 2008, nine days after the Las Vegas trip, Dimora voted to restore funding for AA.
(Gov’t Ex. 241 (Contract and Resolution); Doc. No. 1016, Tr. Jury Trial Vol. 9 (Massie), at
23987-88.)
Leading up to the eventual votes he would cast in favor of AA, these actions demonstrate
that Dimora was “working hard” to convince other public officials to look favorably upon AA
and take their own official acts—such as agreeing to use the services of AA or keeping the
expenditures for such programs in the court budgets—paving the way for Dimora’s official acts.
Of course, “[a]n official does not take an ‘official act’ by ‘[s]imply expressing support [for an
official act] . . . as long as the public official does not intend to exert pressure on another official
. . .” Mendendez, 291 F. Supp. 3d 606, 618-19 (D. N.J. 2018) (quoting McDonnell, 136 S. Ct. at
2371). However, “work[ing] hard to persuade other officials” to take official action is sufficient
to establish that an official used his official position to exert pressure on another official or
advised another official, knowing or intending that such advice would form the basis for an
“official act.” Miserendino, 307 F. Supp. 3d at 492 (citing, among authority, United States v.
Pinson, 860 F.3d 152, 169 (4th Cir. 2017) (further quotation marks and citations omitted)).
Dimora complains that government counsel improperly argued in her close that, in
addition to voting on funding initiatives, the official acts included setting up meetings and
“sp[eaking] highly of Alternatives Agency.” (See Doc. No. 1045, Tr. Jury Trial Vol. 36
30

App. 53

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 31 of 65. PageID #: 33161

(Government Closing Argument), at 30152-53.) Yet, the record established that Dimora did
much more than attend a meeting and offer a favorable opinion about a private organization.
Whether these actions are considered “a decision or action on a qualifying step” necessary to
permit him to ultimately vote further funding to AA, or they were designed to exert pressure on
another official to convince them to perform an official act, the end result was conduct that still
qualifies as official acts under McDonnell. Moreover, Dimora himself took official action by
voting in favor of funding initiatives favorable to AA. There is no basis to reverse Counts 2 and
3.
Counts 4, 5, 6, and 7
Count 4 (conspiracy to commit bribery concerning programs receiving federal funds),
Counts 5 and 6 (bribery concerning programs receiving federal funds), and Count 7 (Hobbs Act
extortion) related to the various schemes involving Ferris Kleem and his companies. Count 5 was
a substantive count limited to the Coe Lake grant, and Count 6 was the substantive count
underlying the construction of a new county juvenile justice center (“JJC”). Count 4 and Count 7
covered all of the schemes associated with Kleem, including the Coe Lake grant, the JJC project,
the project covering the resurfacing of Snow Road, and the enrollment of Kleem’s employees in
Russo’s son’s business. (Indictment at 9659-84.)
There was substantial evidence offered at trial relating to the county’s plan to build the
new JJC, as well as the interest of Kleem and other sponsors in obtaining JJC construction
contracts. In exchange for the Las Vegas trip and other things of value, Dimora agreed to award
one of the contacts to Kleem if he was the low bidder. (Doc. No. 1014, Tr. Jury Trial Vol. 7
(Kleem), at 23384.) In addition to ultimately casting a vote in favor of awarding the contract to
Kleem’s company (Doc. No. 1012, Tr. Jury Trial Vol. 5 (Massie), at 22879), the government
31

App. 54

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 32 of 65. PageID #: 33162

identified several official acts taken by Dimora in connection with this scheme, including voting
to throw out all of the original bids, which permitted Kleem, whose bid had been rejected
because of a problem with his bond, an opportunity to rebid for the project. (Id. at 22788,
22939.) Additionally, on April 3, 2008, two days before the Las Vegas trip, Dimora voted to
request an addendum increasing the general trades estimate, a result that would ultimately benefit
Kleem’s company. (Id. at 22879.)
Also associated with the JJC scheme, there was testimony that, on April 7, 2008, after
Kleem learned that he was only the second lowest bidder on the project, Dimora called his
executive assistance, Pat Smock, in an effort to determine if the low bidder (Panzica) could be
excluded. Through the efforts of Smock, at the direction of Dimora, Panzica’s bid was
disqualified leaving the way clear for Dimora to vote in favor of awarding a 4.5 million dollar
cement contract to Phoenix Cement, one of Kleem’s companies. (Id. at 22955-56, 22979-81,
22937-42; Gov’t Ex. 400-CC-TR; Gov’t Ex. 400-FF-TR; Gov’t Ex. 400-NN-TR.) These acts
were qualifying steps on a matter that would ultimately come before Dimora for a vote. They
were, along with the votes cast by Dimora, official acts under McDonnell.
There were also numerous official acts identified in connection with the Coe Lake grants.
As previously discussed, the evidence demonstrated that Dimora did more than contact a
subordinate and share a favorable opinion about the grant. He pressured Nichols to reexamine
her rejection of the grant, which led to ensuring that the grant proposal would make its way onto
the BOCC’s agenda for a vote. Exerting pressure on other officials to keep projects moving
forward “when other projects would have stopped[,]” qualifies as an official act. See, e.g.,
Jefferson, 289 F. Supp. 3d at 742 (testimony that the congressman’s “continuing interest” forced
other officials “to continue to look at that project in new lights to come to a conclusion that we
32

App. 55

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 33 of 65. PageID #: 33163

could move forward”); see Skelos, 707 F. App’x at 739 (“Using one’s influence as a high ranking
state official to push through county legislation and to bestow a county-issued contract are
indisputably formal exercises of governmental power constituting official acts under
McDonnell.” (citing McDonnell, 136 S. Ct. at 2372)).
The government also presented evidence that Dimora performed various official acts for
Kleem relating to the Snow Road construction project and a smoking citation issued against a
restaurant associated with Kleem. Leading up to Dimora casting a vote to approve a nearly 3
million dollar contract for the resurfacing of Snow Road to Kleem’s company (Gov’t Ex. 400VV (Agenda Action); Doc. No. 1013, Tr. Jury Trial Vol. 6 (Massie), at 23023), Dimora pushed
to have a particular county inspector, John Chyla, assigned to the project. Kleem testified that
having the right inspector on the job had a significant impact on the amount of profit that could
be realized on a project. The evidence at trial demonstrated that Dimora, through two
intermediaries, Kevin Kelley and Kevin Payne, coerced Mike Dever, the County Engineer’s
Office supervisor, to assign Chyla or else Dimora would call Dever’s Boss, County Engineer
Bob Klaiber. (Gov’t Exs. 400-00-Tr; 400-QQ-TR; 400-TT-TR; 400-UU-TR; Doc. No. 1026, Tr.
Jury Trial Vol. 18 (Kelley), at 26173-76.) At the same time, Payne, Dever’s supervisor, was
soliciting assistance from Dimora to increase the salary of Klaiber—an action that would have
required a vote of the commissioners. (Gov’t Exs. 513-TR, 820-TR; Doc. No. 1026, Tr. Jury
Trial Vol. 18 (Kelley), at 26187.) Dever ultimately assigned Chyla to the project, an assignment
he testified that he would not have made but for Dimora’s pressure. 12 (Doc. No. 1015, Tr. Jury
Trial Vol. 8 (Dever), at 23787-92.)

In fact, Dever testified that he had already assigned another inspector, Todd Zima, but he made the switch because
Kelley “invoked the commissioner’s name, Commissioner Dimora’s name, saying that he [Dimora] would contact
33
12

App. 56

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 34 of 65. PageID #: 33164

Dimora also utilized his influence and power to favorably resolve a smoking violation
issued against a restaurant owed by Kleem’s brother. Kleem asked Dimora to “interfere” with the
smoking violation, and Dimora contacted the public official listed on the citation, Terrance
Allen. In a recorded conversation, Dimora asked Allen to “intervene” on the citation and take
another look at it. During the conversation, Dimora acknowledged that Allen was the official
who would decide whether there was a violation. Emphasizing that Kleem was a friend, a good
guy, and a contractor for the county, he noted that Kleem’s cousin had just been elected mayor of
the city in which the restaurant was located and a violation could hurt his reputation. He told
Allen that he was personally at the restaurant on the night in question, and that, based on his own
understanding of the law, there was no violation, noting that the covered patio was in the same
location as the summer open air patio. He also insisted that he did not smell any smoke in the
restaurant. He suggested that perhaps the investigator was simply being “aggressive.” Allen
agreed to sort it out, and, following the phone call, the violation was closed. (Gov’t Ex. 400-KTR; Doc. No. 1010, Tr. Jury Trial Vol. 4 (Massie), at 22529-33.) In a subsequent conversation
with Kleem, Dimora asked Kleem how “that thing worked out for you with the board” referring
to the smoking violation, and added that “he wanted to make sure that [Allen] treated [Kleem]
right.” (Doc. No. 1014, Tr. Jury Trial Vol. 7 (Kleem), at 23372-74.) The men then discussed the
planned Las Vegas trip that Kleem was bankrolling. (Gov’t Ex. 400-L-TR.) Again, a jury could
conclude that Dimora used his influence to pressure another public official to take an official
action. See McDonnell, 136 S. Ct. at 2371.
The analysis regarding the final two sets of actions relating to these counts is more
nuanced, but the charges still involved conduct leading to official acts. The first involved a
my boss, Robert Klaiber, if I couldn’t get John Chyla moved over to the project.” (Id. at 23787-88.)
34

App. 57

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 35 of 65. PageID #: 33165

contract to build a taxiway at Cleveland Hopkins Airport. Kleem was pursuing the $4.2 million
contract on behalf of one of his companies, Blaze Construction. Dimora would ultimately vote to
award the contract to Blaze, and his vote would qualify as an official act. There was also
testimony, however, that prior to the vote, Dimora agreed to contact Cleveland Council President
Sweeney to get him to push for an update on the status of the contract. In the recorded
conversation that followed, Sweeney promised Dimora that he could “figure it out” for Dimora’s
“good friend,” Ferris Kleem. (Gov’t Ex. 101-TR). Sweeney then thanked Kleem for the
opportunity to speak with Dimora, noting that the “commissioner always delivers.” (Id.)
At first blush, this exchange could be viewed as merely a public official’s efforts to get
an update for a constituent. But in a follow-up phone conversation with Dimora, Sweeney
acknowledged that, even though Kleem was likely to have gotten the contract, Dimora certainly
had “helped deliver” the award by contacting Sweeney. (Gov’t Ex. 102-TR.) Sweeney explained
that he [Sweeney] made some inquires regarding the contact that proved “helpful” and, more
importantly, sent the message that the officials associated with this project should not drag their
feet. (Id.) He went on to tell Dimora that, because he and Dimora got involved, Dimora “could
take credit for puttin’ it together.” (Id.) Again, this scheme demonstrated how Dimora used his
position and clout to influence the official actions of other public officials and, because the
government tied these actions to the taking of unlawful bribes, his conduct violated the Hobbs
Act, even after McDonnell.
The final set of official acts offered involved Kleem’s difficulties with First Energy, a
private utility company. The evidence at trial demonstrated that, in 2007, Kleem was
experiencing delays in establishing utility service for one of his construction projects. He asked
Dimora to intervene, and Dimora directed Kevin Kelley to call Doug Hogan at First Energy to
35

App. 58

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 36 of 65. PageID #: 33166

expedite the service as “a personal favor to Commissioner Dimora[.]” (Doc. No. 1016, Tr. Jury
Trial Vol. 9 (Hogan), at 23858-61; Doc. No. 1022, Tr. Jury Trial Vol. 16 (Kelley), at 25401-02.)
Hogan would testify at trial that, following the call from Kelly, he made sure that service was
expedited. (Doc. No. 1016, Tr. Jury Trial Vol. 9 (Hogan), at 23858-61.) The government argues
that the official act was Dimora advocating for First Energy on a matter that would eventually
require his vote, whether to keep First Energy as the energy provider for the county.
However, in her close, government’s counsel argued that calling businessmen “was part
of the [commissioner’s] job duties,” and she identified the phone call Kelley placed to First
Energy as an official act. The government now argues that the phone call was a qualifying step
toward the ultimate vote for First Energy, but the connection to the threat that the county would
vote to change energy providers was tenuous at best. Rather, the jury could have viewed the call
as nothing more than one public official responding to a concern from a constituent, something

36

App. 59

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 37 of 65. PageID #: 33167

that would likely not have qualified as an official act under McDonnell. 13
Still, the Court’s charge would have informed the jury that such an act did not qualify
under the law. By instructing the jury that they could consider the actions’ “lawfulness,
desirability, or benefit to the public welfare” in deciding whether an official act qualifies under
the statute, and further requiring them to exclude actions that were not tied to a pending matter or
merely designed to cultivate friendship, the Court ensured that general inquiries on behalf of
constituents would not be considered official acts. 14
Of course, even if there had been error associated with this last scheme, the breadth of the
evidence involving the other Kleem schemes, including the evidence directly connecting the
purported acts to the numerous bribes Kleem paid Dimora, removed the possibility of any
doubt—let alone a “grave doubt”—that the jury instructions had a “substantial and injurious
influence” on the jury’s verdict. See Kotteakos, 328 U.S. at 765. This is especially true when one
considers that the Hobbs Act violation charged in Count 7 also included the JJC and Coe Lake
grant schemes alleged in substantive Counts 5 and 6 for which Dimora was convicted and which
clearly involved official acts. Counts 4-7 survive after McDonnell.

The government argues that “[i]t would have been reasonable for Hogan to conclude that if Hogan refused to
expedite the service, Petitioner would probably have changed or delayed his vote [for First Energy], just as he did
when he pulled a Michael Baker Group matter from the commissioners’ agenda as a result of Michael Baker Group
refusing to buy a table at a Democratic fundraiser.” (Opp’n at 32724-25, citations omitted.) Such an argument is
steeped in speculation and assumes facts that were unknown to Hogan, a private businessman with no known
familiarity with the inner workings of county government.
13

14
In fact, in his close, defense counsel was able to argue, without objection, that the conduct did not amount to an
official act under the law. Specifically, counsel posited, “[y]ou heard from Mr. Hogan. Mr. Hogan told you that
anybody can make that call. ‘I get those calls all the time. Ferris Kleem could have called me.’ There’s no influence.
This is a private company, a private company that public officials contacted regularly.” (Doc. No. 1045, Tr. Jury
Trial (Defense Close), at 30311.) Because counsel was not prohibited from arguing his client’s defense theory—a
theory that was not contradicted by the jury instructions—there can be no actual prejudice. See Clarke, 842 F.3d at
296.

37

App. 60

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 38 of 65. PageID #: 33168

Count 8
Count 8 charged Dimora with violating the Hobbs Act by accepting things of value from
Kevin Payne in exchange for a series of votes on county business. (See, e.g., Gov’t Ex. 840
(Agenda Action); Doc. No. 1024, Tr. Jury Trial Vol. 15 (Kelley), at 25796-97; Gov’t Ex. 842
(Agenda Action); Gov’t Ex. 846 (Resolution); Gov. Ex. 852 (Agenda Action).) These votes,
which ran the gamut from approving a lease that enabled a co-conspirator to keep his county
department in a coveted office space to increasing the county salary of one of Dimora’s coconspirators, obviously involved the “formal exercise of governmental power,” on specific,
pending matters, as required by McDonnell. 136 S. Ct. at 2371-72.
Count 9 charged Dimora with conspiracy to commit honest services and money and
property mail fraud. The evidence offered at trial established that Dimora attempted to pressure
three suburban officials—Tom Day, the City of Bedford Clerk of Courts; Tom Cornhoff, Human
Resources Director for the City of Solon; and a Bedford Municipal Judge—to secure for Gina
Coppers a public job with state benefits offered through a program known as OPERS, 15 at a
salary agreeable to her. (Doc. No. 1019, Tr. Jury Trial Vol. 12 (Massie), at 24759-74, 2477924803, 24807-10, 24818-19.) In exchange, Coppers gave Dimora sexual favors and a paid for a
hotel room.
In a series of calls between Dimora and Coppers, Dimora made clear that he would use
his substantial influence to get Coppers a position in Bedford. In one call, Dimora informed

OPERS stands for Ohio Public Employees Retirement System, and there was testimony at trial as to the desirable
nature of these benefits. In fact, it was the government’s theory that many ghost employees, including Gabor, sought
county employment to obtain these benefits.
15

38

App. 61

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 39 of 65. PageID #: 33169

Coppers that:
I told [Day], let’s . . . get her in, back into P-E-R-S, even if it’s part time to start
out with. . . . And then we’ll either move it to full time over at Solon or we’ll try
to put you at the Court. . . . I’ll stay on top of [Day], hound him . . . . I’ll touch
base with him on Monday.
(Gov’t Ex. 905-TR) (emphasis added). In another call, when Coppers told petitioner not to let
Tom Day forget about her, Dimora assured her “I won’t let ‘em. They [sic] never be able to
forget.” (Gov’t Ex. 908-TR.)
Day didn’t forget about Coppers or Dimora, eventually telling Dimora that “I know
[Coppers] is looking to you . . . I want to do this for you and . . . for her . . . we’ll get it done.” 16
(Doc. No. 1019, Tr. Jury Trial Vol. 12 (Massie), at 24810.) Even though there were no positions
available, and there was no evidence Bedford ever advertised for a position, Day hired Coppers.
(Gov’t Ex. 900 (Summary Chart); Doc. No. 1019, Tr. Jury Trial Vol. 12 (Massie), at 24751,
24763, 24768-9, 24771-73.)
Applying the Court’s instructions on exerting influence on other officials, there was
sufficient evidence for the jury to find that Dimora influenced Day to perform an official act—
hiring Coppers— an act that Day was not likely to perform but for Dimora’s pressure. See
Miserendino, 307 F. Supp. 3d at 491 (“[H]iring a specific individual ‘squarely fit[s] the
definition of an official act under McDonnell.’” (quoting United States v. Fattah, 223 F. Supp. 3d
336, 362-63 (E.D. Pa. 2016) (underlining in original))).
Counts 10 and 11
Unlike Governor McDonnell who did not expect his subordinates to do anything other than attend a meeting, see
McDonnell, 136 S. Ct. at 2374, this and other evidence—like Dimora calling Kleem to make sure Allen “treated him
right” and Dimora directing McCafferty to “get it done”—demonstrated that when Dimora asked another official to
make a call or attend a meeting, there was always an expectation that an official act would follow.
16

39

App. 62

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 40 of 65. PageID #: 33170

Count 10 charged Dimora with conspiracy to commit Hobbs Act extortion and Count 11
charged the underlying extortion acts. These counts related to bribes Dimora received from a
local businessman, John Valentin. Valetin testified that he and his company supplied free granite
countertops, valued at $3,250, for Dimora’s home because “I was thinking in the future maybe I
will have some—if I need some help from [Dimora] I can get some favors. . . . [I]f I make him a
favor, I’m going to get a favor back in the future. If I have a problem, I can have a door open to
him to ask him for help if I need help.” (Doc. No. 1036, Tr. Jury Trial Vol. 23 (Valentin), at
28226, 28242.)
Valentin did solicit Dimora’s help with two matters, both of which, the government
contends, involved official acts. First, Dimora voted to approve funds so that Russo could create
a foreclosure department and hire Valentin’s daughter. She had been unhappy working in the
County Prosecutor’s Office and wanted to change jobs. (Id. at 28220; Doc. No. 1039, Tr. Jury
Trial Vol 26 (Russo), at 29037-38.) The vote certainly qualifies as an official act.
The second act involved Dimora’s efforts to pressure federal officials to issue a VISA for
a Romanian friend who wanted to enter the United States. Russo testified that Dimora directed
him to contact an associate of a United States senator. Russo told the contact that Dimora “really
wants this done bad. So do I. It would be a big favor to us. I hope you can accommodate us.”
(Doc. No. 1039, Tr. Jury Trial Vol. 26 (Russo), at 29040.) The Senator (who was then on the
Foreign Relations Committee) wrote to the United States embassy in Bucharest seeking the
VISA stating that he was doing so on behalf of Dimora. (Doc. No. 1036, Tr. Jury Trial Vol. 23
(Valentin), at 28243; Doc. No. 1038, Tr. Jury Trial Vol. 25 (Oliver), at 28620; Gov’t Exs. 1002,
1003.) From this evidence, a rational juror could have concluded that Dimora sought, through
40

App. 63

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 41 of 65. PageID #: 33171

Russo, to pressure or advise government officials to take official action for Valentin’s benefit.
See, e.g., Menendez, 291 F. Supp. 3d at 618 (“There is available evidence that, with regard to the
visas, Menendez by phone call or by correspondence interceded with appropriate State
Department officials to obtain favorable consideration of visa applications made by [Menendez’s
co-defendant] friend.”) Both acts qualify as official acts under McDonnell.
Counts 12 and 13
The schemes charged in Count 12 (conspiracy to commit Hobbs Act extortion) and Count
13 (Hobbs Act extortion) related to another businessman, Nicholas Zavarella. Like Valentin,
Zavarella paid Dimora bribes in the form of home improvements in exchange for access to
Dimora’s influence as commissioner. In her closing argument, the government identified five
official acts: (1) recommending Zavarella’s daughter for a position with the county, (2)
pressuring the Parma School Board to hire Zavarella’s daughter as a substitute teacher, (3)
pressuring Russo to hire Lillian Trovato, (4) recommending Zavarella’s daughter for a position
with the Bedford School District, and (5) obtaining an update on a county contract. Two of the
five acts qualify as official acts under McDonnell, but the Court finds that three do not.
When Dimora approached Kelley about securing a teaching position for Zavarella’s
daughter, Lauren, with the Parma City Schools, and instructed Russo to hire Zavarella’s
neighbor, Lillian Travato, he pressured other public officials to perform official acts. Two years
after Zavarella built columns on Dimora’s patio at no charge, Kelley testified that Dimora asked
him to find Lauren a teaching position with the Parma City schools. Kelley explained that the
“superintendent had the ultimate power to hire or fire teachers. But as a school board member,
the superintendent worked for the school board and [Kelley] had a lot of influence over the
superintendent at the time.” (Doc. No. 1026, Tr. Jury Trial Vol. 18 (Kelley), at 26240; see Doc.
41

App. 64

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 42 of 65. PageID #: 33172

No. 1038, Tr. Jury Trial Vol. 25 (Oliver), at 28613-14.) At Dimora’s direction, Kelley used that
influence to request that the superintendent hire Lauren, which she did. (Id.)
Similarly, in summer 2007, the same year Zavarella worked on Dimora’s outdoor kitchen
expansion at no charge, he asked Dimora to help his neighbor, Trovato, obtain county
employment. (Doc. No. 1039, Tr. Jury Trial Vol. 26 (Russo), at 29078.) This time Dimora turned
to Russo, who, in turn, hired Trovato in the Auditor’s Office. Russo testified that he “hired
[Trovato] because [Dimora] asked [him] to hire her.” (Id.) In each of these instances, Dimora
influenced or pressured other public officials, either directly or indirectly, to perform the official
act of hiring someone.
The evidence relating to the two other employment opportunities was materially
different. Zavarella testified that, in 2002, the same year he built a retaining wall on Dimora’s
property at no charge, he asked Dimora to help Lauren obtain a county job by “put[ting] in a
good word.” (Doc. No. 1037, Tr. Jury Trial Vol. 24 (Zavarella), at 28331.) There was no
testimony regarding what actions Dimora did in this regard, or who was responsible for the
hiring decision, but Lauren was successful in securing county employment. (Id.) Then, in 2007,
the same year he worked on Dimora’s outdoor kitchen expansion at no charge, Zavarella asked
Dimora to recommend Lauren for a teaching position with Bedford City Schools. The record
reflects that Dimora wrote Lauren a letter of recommendation on his commissioner letterhead.
(Id. at 28333; Doc. No. 1038, Tr. Jury Trial Vol. 25 (Oliver), at 28613.) Zavarella believed that
the letter “helped” Lauren secure a teaching position with Bedford. (Doc. No. 1037, Tr. Jury
Trial Vol. 24 (Zavarella), at 28333.)
The government argues that both instances represent additional times that Dimora used
his influence to pressure other public officials to take official action, but the record does not
42

App. 65

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 43 of 65. PageID #: 33173

establish that Dimora did anything more than express his opinion about a possible hire. See
Jefferson, 289 F. Supp. 3d at 739 (writing a letter on official letterhead, standing alone, is
insufficient to satisfy the exertion of “pressure” requirement); see also Silver, 864 F.3d at 122
(expressing an opinion on a matter of public concern did not constitute an official action). There
was no evidence that any public official was pressured because Dimora intervened. In fact, the
Bedford superintendent testified simply that they [school district personnel] appreciated
receiving letters of recommendation from people they respected, and that such a letter might get
a candidate a courtesy interview, but that the candidate would still have to stand on her merits
against the other applicants. 17 (Doc. No. 1029, Tr. Jury Trial Vol. 31 (Micsak), at 26950.) Absent
evidence that Dimora exerted any pressure on another public official, Dimora’s efforts to put in a
good word for Zavarella’s daughter amounted to nothing more than “speaking with interested
parties” or “expressing support” for a certain issue, and, without more, does not qualify as an
official act, even if it is tied to a pending question or matter. See McDonnell, 136 S. Ct. at 237071.
Likewise, the last identified action no longer qualifies as an official act after McDonnell.
In 2008, Zavarella asked Dimora to determine the status of certain proposed county projects. The
evidence established that Dimora asked his assistant to “snoop” around, and his assistant was
able to confirm that the plans to build an eastside neighborhood service center were still in the
works. (Gov’t Ex. 1201-TR; Gov’t Ex. 1203-TR; Gov’t Ex. 1204-TR.) The government argues
that Dimora’s efforts to obtain inside government information for Zavarella constituted an
essential qualifying step in Zavarella eventually obtaining the contract. The Court disagrees, as

The superintendent further testified that they preferred to receive letters of recommendation from people who had
professional experience over a letter writer who, like Dimora, was really serving as a character witness. (Id. at
43
17

App. 66

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 44 of 65. PageID #: 33174

there was no evidence that this information was essential, necessary, or factored in any way into
the eventual award of the contract. Instead, it merely represents an inquiry made in response to a
concern of a constituent. While that inquiry may have been prompted by a bribe, it does not
violate the Hobbs Act. Having determined that three of the five quid pro quo actions no longer
qualify as official acts, the Court must determine whether the Court’s instructions would have
left the jury free to find to the contrary in violation of the dictates of McDonnell.
The Court finds that the Court’s jury instructions adequately covered these situations.
Applying the Court’s instructions, a rational juror would have concluded that offering a letter of
recommendation for a friend’s daughter, without any attempt to exert influence over the public
official responsible for the hiring decision, amounted to either a personal action or an action
designed merely to cultivate a friendship. This is especially true for the teaching position, as it is
not within the function of a county commissioner to recommend teachers for positions with city
schools. Likewise, the call regarding the service center was nothing more than an attempt to get
information for a friend or constituent, and the Court’s instructions would have permitted the
jury to find that such conduct was not unlawful. Even setting aside the three acts that did not
qualify as official acts, Counts 12 and 13 were still supported by convincing evidence that
Dimora engaged in conduct that does qualify as official acts and, as such, there is no basis to
vacate these convictions.
Counts 14, 15, and 16
Count 14 (conspiracy to commit Hobbs Act extortion), Count 15 (Hobbs Act extortion),
and Count 16 (conspiracy to commit honest services and money and property wire fraud), all
involved the quid pro quo agreement between Dimora and William Neiheiser, a businessman
26955-56.)

44

App. 67

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 45 of 65. PageID #: 33175

who ran an electrical construction company. The evidence at trial established that, in exchange
for Dimora’s help, Neiheiser offered Dimora bribes in the form of home improvements, a check
for $3,600 to finance a college football jersey Dimora purchased at a charity auction, and a
gambling junket to Atlantic City.
Two sets of actions underlie these convictions. The first group involved votes Dimora
cast on the JJC project that benefitted Neiheiser’s company, Reliance Mechanical. On December
13, 2007, Dimora voted to authorize bidding for the JJC. (Gov’t Ex. 524-TR (Agenda Action).)
Two months later, Dimora and Neiheiser had a conversation about the JJC bidding, during which
Neiheiser reminded Dimora that last time “you didn’t pick the low bidders. You threw ‘em off
for technicalities.” (Gov’t Ex. 1407-TR.) Neiheiser then emphasized to Dimora: “so when you
see Reliance Mechanical is the low bidder [this time], don’t f—ck it up,” Dimora responded, “No
alright, that’s good to know[.]” (Id.) Later in the conversation Neiheiser added, “It’s a big
enough job [the JJC] so we’re going after it to get it and then you and I can have fun for two
years.” (Id.) Dimora asked him when the bid was due and told him he hoped that his company’s
bid was low. Reliance Mechanical was not the lowest bid, but on March 13, 2008, Dimora voted
to reject all of the bids for the main building packages, giving Reliance the opportunity to

45

App. 68

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 46 of 65. PageID #: 33176

rebid. 18 (Doc. No. 1012, Tr. Jury Trial Vol. 5 (Massie), at 22877; Gov’t Ex. 400-R-1 (Agenda
Action); Doc. No. 1021, Tr. Jury Trial Vol. 14 (Massie), at 25361.) These votes, tied to specific
county contracts, clearly qualify as official acts under McDonnell.
As for the second set of acts, the evidence at trial established that, during the time period
relevant to the indictment, the City of Lakewood, Ohio, was contemplating the future of a cityowned and operated ice rink. Neiheiser was having trouble scheduling an appointment with
Lakewood’s mayor, Edward Fitzgerald, to discuss his plans to purchase the ice rink from the
city. Dimora was able to arrange a phone conversation with Fitzgerald. During the call, Dimora
indicated that he was there with Neiheiser who had been trying to reach him. Fitzgerald
acknowledged that Neiheiser had been calling and explained to Dimora that he had been in
around-the-clock union negotiations. He instructed Dimora to have Neiheiser call the office the
following morning, assuring Dimora that he would “make time to talk to him.” (Doc. No. 1021,
Tr. Jury Trial Vol. 14 (Massie), at 25342-43; Gov’t Ex. 1403-TR.)
In his motion, Dimora argues that the call amounted to nothing more than a “[c]all [to] a
local mayor to ask him to meet with a businessman[],” something that would have fallen short of
an official act under McDonnell. (Mot. at 32330.) Similarly at trial, defense counsel argued that
the evidence proved only that he assisted a constituent in getting an audience with a city mayor
to discuss a matter of public importance. Indeed, counsel was permitted to argue without
objection in his close that his client merely said,
“Look, you may want to listen to my friend. . . .” He doesn’t say, “Look, I’m the
commissioner. This is a guy that I want you to do this for . . . .” [He just said]
“[Y]ou might want to talk to him.” Guess what? He did talk to him. And guess
The evidence further demonstrated that, on February 14, 2008, Dimora voted to approve an addendum to the
specifications on the JJC projects, including clarifications and technical changes to the HVAC building package that
would be of interest to Neiheiser and Reliance Mechanical. (Gov’t Ex. 1454` (Agenda Actions).)

18

46

App. 69

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 47 of 65. PageID #: 33177

what? The City of Lakewood is better today. That rink is still going. It got
renovated. It’s a beautiful rink. It’s making money and everybody is happy about
it. That’s what commissioners are supposed to do. . . . And what does [Dimora]
do? He calls [the mayor], “Can you sit down with him?” He tells him, “I’m sitting
here with a friend.” He tells him, “He has a proposal to make for you.” There’s no
undue influence here. There’s no official action here.
(Doc. No. 1045, Tr. Jury Trial Vol. 36 (Defense Close), at 30278, 30374, emphasis added.)
Given the fact that the Court’s instruction invited the jury to consider the public benefit of the
action and whether the defendant attempted to influence another public official into taking an
official action, as well as whether the defendant’s action was merely designed to cultivate
friendship, the jury was free to find that Dimora did not perform an official act.
However, given the nature of the call, a recording of which was played for the jury at
trial, the jury was also free to find that Dimora did much more than merely secure an
appointment for Neiheiser. During the call, Dimora clearly and aggressively advocated
Neiheiser’s position. He promised Mayor Fitzgerald that Neiheiser’s deal would be “mutually
advantageous” to him and the city. He encouraged the mayor to speak with Neiheiser because
“there might be a good opportunity” for the city to “get [the ice rink] off your [the city’s] back.”
(Gov’t Ex. 1403-TR.) He explained that Neiheiser “owns a rink in Strongsville already[,]” and
runs a successful construction company so that he would have the experience, knowledge, and
resources to make whatever renovations were necessary to make the ice rink a going concern.
Finally, he personally vouched for Neiheiser, suggesting that he was “very legitimate,” and that
he was “definitely” the “real deal.” 19 (Id.) Finally, Dimora offered to assist the mayor with his
ongoing union negotiations, which, according to the mayor, had been going poorly and were the
19
Dimora assured Fitzgerald that Neiheiser was not one of those people who had grandiose ideas accompanied by
big talk but without the resources or means to follow through.

47

App. 70

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 48 of 65. PageID #: 33178

reason that he had not been able to get in touch with Neiheiser. (Id.)
Based on this exchange, the jury could also have properly found that Dimora’s support
for Neiheiser and his project was clearly offered and intended to exert pressure on Fitzgerald to
perform the official act of privatizing the rink and selling it to Neiheiser. See Miserendino, 307
F. Supp. 3d at 491 (“expressing strong support for a matter, and requesting that another official
approve of such a matter have been found sufficient to establish that an official used ‘his official
position to exert pressure on another official,’ or advised ‘another official, knowing or intending
that such advice [would] form the basis for an ‘official act.’” (quoting McDonnell, 136 S. Ct.
2372)); see Boyland, 862 F.3d at 291-92 (expressing “strong support” for the awarding of
permits by advising another official that he knew he would look favorably on the permit
application constituted exerting pressure on another official). To sweeten the deal, Dimora even
offered his help with the mayor’s union negotiations—help that was not available before the
phone call. The jury would have been permitted to take all of this into consideration in
determining whether Dimora was attempting to coerce or influence the official action of another
public official.
Because the jury was properly instructed on these counts, and Dimora was permitted to
make his arguments relative to whether his actions were unlawful under the Hobbs Act, there is
no prejudice and no reason to justify vacating these counts. See Neder, 527 U.S. at 8; Clarke, 842
F.3d at 296.
Counts 17–21
Counts 17-21 relate to bribes Steve Pumper paid to Dimora in the form of cash, home
improvements, sport tickets, dinners, and the promise of a percentage of profits from a business
venture in exchange for action taken on numerous business projects and personal matters. The
48

App. 71

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 49 of 65. PageID #: 33179

government offered substantial evidence at trial as to Pumper’s many projects and concerns, as
well as the official actions Dimora took on Pumper’s behalf. Specifically, there was evidence
that Dimora agreed to, and did, cast at least six votes to either award various contracts to
Pumper’s companies or, in some instances, to reject the slate of bids to give Pumper’s companies
a second chance to bid. (Doc. No. 1038, Tr. Jury Trial Vol. 25 (Oliver), at 28668-69; Gov’t Exs.
1700-A (Agenda Action), 1700-B (Resolution); Doc. No. 1037, Tr. Jury Trial Vol. 24 (Oliver),
at 28434; Gov’t Ex. 2827; Doc. No. 1012, Tr. Jury Trial Vol. 5 (Massie), at 22876-77, citing
Gov’t Ex. 400-R-1 (Agenda Action)); Doc. No. 1037, Tr. Jury Trial Vol. 24 (Oliver), at 28435;
Gov’t Ex. 1700-N (Agenda Action); Gov’t Ex. 1700-D (Agenda Action).) There was also
considerable evidence showcasing Dimora’s efforts to push along Pumper’s various business
projects—at each step of the process—performing essential qualifying acts that would ensure
that he could ultimately have the opportunity to cast a vote that would repay Pumper for his
bribes. (See, e.g., Doc. No. 1034, Tr. Jury Trial Vol. 21 (Pumper), at 27768-70; Doc. No. 1035,
Tr. Jury Trial Vol. 22 (Pumper), at 27816-18; Doc. No. 1030, Tr. Jury Trial Vol. 32
(Maldonado), at 27011, 27043; Gov’t Ex. 1700-CC-TR; Gov’t Ex. 1700-EE-TR; Gov’t Ex.
1700-GG-TR; Gov’t Ex. 1709.)
As previously noted, there was also evidence that Dimora pressured other public officials
to perform official acts in connection with Pumper’s businesses, his children, and his
involvement in certain civil litigation, including evidence that Dimora pressured Common Pleas
Judge Bridget McCafferty to expedite a settlement between Pumper and the Cleveland Browns
over a contract dispute at terms acceptable to Pumper. (Doc. No. 1035, Tr. Jury Trial Vol. 22
(Pumper), at 27862-72; Gov’t Ex. 17700-VV-TR; Gov’t Ex. 1700-XX-TR.) Judge McCafferty
was charged for her involvement in this scheme in the same indictment charging Dimora and
49

App. 72

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 50 of 65. PageID #: 33180

was eventually convicted of lying to the FBI.
Of the nine schemes charged relating to Counts 17-21, only one gives the Court pause in
light of McDonnell. In spring 2008, Pumper was working with developer, Harvey Oppmann, to
renovate two buildings in Cleveland. Oppmann was looking to the Federal Department of
Housing and Urban Development (“HUD”) for the financing. DAS, one of Pumper’s family’s
companies, stood to receive millions in revenue from the renovations, but the HUD financing
had to come first. Pumper asked Dimora to call a United States senator in an attempt to exert
pressure on HUD to move the process along in Washington. On April 7, 2008, Dimora placed
the call through his assistant, and put Pumper on the phone so he could plead his case with the
Senator. (Doc. No. 1035, Tr. Jury Trial Vol. 22 (Pumper), at 27878-81, 27883-84; Gov’t Ex.
1710-TR.)
Here, the evidence established that Dimora did little more than help Pumper get in
contact with the right public official. There was no evidence that, in this instance, Dimora
exerted or attempted to exert any pressure on the Senator or on anyone associated with HUD
funding. This act, alone, would not support a Hobbs Act violation regarding this particular
scheme.
Nevertheless, while the Court believes that the jury would have applied the instructions to
the evidence to find that the call amounted simply to the cultivation of friendship, there was a
wealth of evidence that Dimora took numerous official acts to assist Pumper with his various
business endeavors in eight other schemes; several of which formed the basis for the substantive
crimes charged in Counts 17 and 18 for which Pumper was also convicted. As such, Dimora’s
convictions on these counts are fundamentally different from Silver where only one possible
official act remained after the ruling in McDonnell. See Silver, 864 F.3d at 120 (Of the acts
50

App. 73

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 51 of 65. PageID #: 33181

charged as official acts under the relevant bribery statutes, “only the Assembly resolution clearly
remains an ‘official act’ under McDonnell.”) Under these circumstances, the Court cannot say
there is a risk that Dimora was convicted for performing nonqualifying pro forma acts such as
“setting up a meeting, talking to another official, or organizing an event (or agreeing to do so)[.]”
See McDonnell, 136 S. Ct. at 2372. Because the Court finds that any error in the instructions did
not have a substantial and injurious effect or influence on the jury’s verdict on these courts, there
is no basis to vacate the conviction as to these counts.
Counts 22 and 23
Count 22 (conspiracy to commit Hobbs Act extortion) and Count 23 (Hobbs Act
extortion) relate to bribes in the form of free home improvements Anthony Melaragno gave to
Dimora in exchange for Dimora’s votes benefitting Melaragno’s company, Vandra Brothers, and
hiring a relative of Melaragno in the Sanitary Engineer’s Office. (Doc. No. 1037, Tr. Jury Trial
Vol. 24, (Oliver), at 28574-76; Gov’t Exs. 156 (Resolution), 157 (Request for Action); Gov’t Ex.
154 (Resolution); Gov’t Ex. 2251 (Agenda Action); Gov’t Ex. 2233 (Personnel Action involving
relative); Doc. No. 1018, Tr. Jury Trial Vol. 11 (Gouker), at 24620-31; Gov’t Ex. 2252 (Agenda
Action); Gov’t Ex. 2253 (Agenda Action).) Each vote was an official act. There is no basis to
vacate the convictions relative to these counts.

51

App. 74

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 52 of 65. PageID #: 33182

Counts 24 and 25
Count 24 (conspiracy to commit Hobbs Act extortion) and Count 25 (Hobbs Act
extortion) involve Dimora’s dealings with Rob Rybak, the then-secretary/treasurer of a local
plumbers’ union. There was evidence at trial that Rybak paid bribes to Dimora in the form of
home improvements and restaurant meals in exchange for three acts by Dimora: (1) voting for a
raise for Rybak’s wife, Linda, who was employed by the county in the Human Resources
Department; (2) pressuring county employees to hire Rybak’s daughter, Dana, for summer
employment; and (3) voting to employ two union plumbers.
The government offered evidence that Rybak sought a raise for his wife because the
couple was contemplating a divorce. (Doc. No. 1026, Tr. Jury Trial Vol. 18 (Kelley), at 2624548 [“We needed to get [Linda] more money so . . . Rob [would not] get stuck paying a bunch of
alimony.”].) Dimora took a number of qualifying steps to ensure that the matter was on the
BOCC agenda before he ultimately voted in favor of the raise on April 24, 2008. (Doc. No. 1020,
Tr. Jury Trial (Spielmaker), at 25125-26; Gov’t Ex. 2461 (Agenda Action); Gov’t Ex. 2460
(Resolution).) This action qualifies as an official act.
Likewise, the vote to employ two union plumbers also constitutes an official act. At
Rybak’s request, Dimora voted in favor of appointing two members of Rybak’s local plumbers’
union as full-time temporary county employees. (Gov’t Ex. 2438 (Reference to Executive
Session); Gov’t Ex. 2442 (Personnel Action); Gov’t Ex. 2455 (Resolution). After the vote,
Dimora reminded Rybak that he “took care of [him] again.” (Doc. No. 1020, Tr. Jury Trial Vol.
13 (Spielmaker), at 25103.)
The third action related to Dimora’s efforts to arrange a summer county job for Dana
52

App. 75

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 53 of 65. PageID #: 33183

Rybak. Dimora did not want to hire her in his office because Dana’s mother already worked
there, and Dimora was afraid that people would talk. Therefore, he pressured Kelley into
arranging for her hire in the Sanitary Engineer’s Office. Kelley testified that it took “mountains”
to convince the County Engineer to approve starting Dana earlier than the other summer
employees. (Doc. No. 1026, Tr. Jury Trial Vol. 18 (Kelley), at 26266.) The pressure Dimora
exerted over Kelley was evident in a phone call, wherein he told Kelley,
If you can’t [hire her], tell Pat [Dimora’s assistant] we’re gonna have to hire her.
What else can I do? I can’t say no. . . . So I’m going to have to take her if you
guys don’t take her. . . . I just have no choice. I’ll start her tomorrow. What am I
gonna do?
(Gov’t Ex. 2429-TR.) This pressure on Kelley to convince him to perform (through the County
Engineer) the official act of hiring Dana Rybak also qualified as an official action, and the jury
was properly instructed. These convictions remain sound after McDonnell.

53

App. 76

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 54 of 65. PageID #: 33184

Counts 26 and 27
The final relationship between Dimora and a business associate that formed the basis for
Hobbs Act charges involved Charlie Randazzo. Count 26 charged conspiracy to commit Hobbs
Act extortion, and Count 27 charged the underlying Hobbs Act violations. In these counts, the
government offered evidence from which a rational juror could have found that Dimora took
things of value from Randazzo in the form of food, meals, wine, sporting event tickets, and
outdoor furnishings in exchange for helping Randazzo’s company obtain workers compensation
contracts with public entities, including the county. Randazzo explained that he paid the bribes to
Dimora and Russo because “they helped me; I helped them.” (Doc. No. 1038, Tr. Jury Trial Vol.
25 (Randazzo), at 28816-17.)
Two official acts support these counts. First, trial evidence established that Randazzo
informed Dimora that he was encountering difficulties reaching the director of the Northeast
Ohio Regional Sewer District, Julius Ciaccia, to pitch his company’s deferred compensation
product. On February 15, 2008, Dimora called Ciaccia in Randazzo’s presence, saying
I was hoping you could do me a favor. I gotta good friend of mine that has a
deferred comp program that does, uh. deferred comp for the County. . . . It’s
called Financial Network of America and they wanted to come out and meet with
you to talk to you about the Regional Sewer employees, you know, possibly
giving them an option for deferred comp program. . . . You know [the County
Prosecutor’s] in it, in this program. I’m in it. Frank Russo. We’re all in this. I
mean, to me, it’s offered a better financial reward. And, again, it’s optional for
your employees as you know. . . . I just wanted him [Randazzo] to say hi to you
and maybe you guys could, uh, swap phone numbers or he could set somethin’ up
. . . . He’s got a meeting set up to do Cleveland’s. . . . Marty Sweeney’s
[Cleveland City Council Member] helpin’ him get that set up.
(Gov’t Ex. 2601-TR) (emphasis added). Dimora then put Randazzo on the phone, who continued
to promote the product, mentioning Dimora and the county in the process. (Doc. No. 1038, Tr.
54

App. 77

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 55 of 65. PageID #: 33185

Jury Trial Vol. 25 (Oliver), at 28757, 28788; Id. (Randazzo), at 28813, 28839-40.) Dimora later
made efforts to have his staff get contact information to Randazzo so that he could follow up
when Ciaccia did not immediately get back to him.
The evidence at trial established that Dimora did much more than simply place a phone
call, set up a meeting, or offer an opinion on Randazzo’s behalf. Rather, his “strong support” for
Randazzo and his company’s deferred compensation product was clearly offered and intended to
exert pressure on Ciaccia to perform the official act of buying into the program. See
Miserendino, 307 F. Supp. 3d at 491 (quoting McDonnell, 136 S. Ct. 2372); see Boyland, 862
F.3d at 291-92.
Randazzo also asked Dimora for assistance in meeting with the Mayor of Beachwood
because he was trying to pick up the City of Beachwood as a customer. Dimora agreed to help,
and set up a dinner meeting with Randazzo, the mayor, himself, Russo, Gabor, and others.
During the meeting, Dimora touted Randazzo’s product, underscoring the fact that the county
was a customer. (Doc. No. 1038, Tr. Jury Trial Vol. 25 (Randazzo), at 28811-12.) Once again,
Dimora did more than simply set up a meeting and leave Randazzo to fend for himself. He took
action by providing strong support for Randazzo’s deferred compensation product at the
meeting, with the expectation that the Mayor of Beachwood would rely on that support to take an
official action that would benefit Dimora’s bribe payer. Cf. McDonnell, 136 S. Ct. at 2374
(McDonnell’s subordinates testified that McDonnell merely asked them to attend meetings and
did not expect them to do anything beyond that). Moreover, like he did with the sewer district
director, Dimora offered the mayor advice knowing or intending that the advice would form the
basis for the mayor’s decision. See Menendez, 291 F. Supp. 3d at 619 (“[P]roviding advice can
be an official act only when the official ‘know[s] or intend[s] such advice [will] form the basis
55

App. 78

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 56 of 65. PageID #: 33186

for an ‘official act.’” (quoting McDonnell, 136 S. Ct. at 2371 (alterations in original))). These
counts are supported by post-McDonnell official acts.
Count 1
This leaves Count 1, which charged a RICO conspiracy. This count detailed a number of
racketeering schemes and, while included in these schemes were some of the ones charged in
other counts discussed supra, it also comprised schemes that were not directly charged against
Dimora. One such scheme involved Gabor’s purchase of his county job in exchange for $5,000
in cash paid to Russo. The evidence demonstrated that Dimora asked Russo to hire Gabor in the
Auditor’s Office notwithstanding the lack of job openings in the Auditor’s Office, and then took
advantage of Gabor’s light schedule by asking him to serve as his driver and run personal errands
for him during the work day. (Doc. No. 1039, Tr. Jury Trial Vol. 26 (Russo), at 28957-59,
28963; Doc. No. 1026, Tr. Jury Trial Vol. 18 (Kelley), at 26205-06, 26209.) Dimora was also
present when Kelley asked Gabor how much he paid Russo for his job, and Gabor responded by
gesturing with five fingers. (Id. (Kelley), at 26205-06; Doc. No. 1039, Tr. Jury Trial Vol. 26
(Russo), at 28958-9.) Because Dimora initiated the scheme and personally benefited from it, the
record demonstrated that Dimora agreed that Russo and Gabor would commit bribery (and Russo
would take an official action), one of the types of crimes charged in the RICO conspiracy.
In another scheme, Dimora was alleged to have performed an official act—pulling a
matter off the commissioners’ agenda—because Michael Baker Group, the consulting engineer
for the project, failed to pay a bribe in the form of a campaign contribution. Dimora instructed
Kelley to have Michael Baker Group buy a table for the Democratic Party’s annual dinner. The
company bought two tickets but refused to buy a table. In retaliation Dimora pulled their project
from the agenda, “scaring them basically that their item [was] not going to pass, and maybe [the
56

App. 79

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 57 of 65. PageID #: 33187

company] would reconsider . . . buying a table in the future if not then.” (Doc. No. 1024, Tr. Jury
Trial Vol. 15 (Kelley), at 25833-34.) Delaying a vote is an official act post-McDonnell. Hill v.
United States, No. 3:15CV725-M, 2016 U.S. Dist. LEXIS 165084, at *4 (N.D. Tex. Nov. 3,
2016) (Petitioner “took action in his position on the Dallas City Council to approve, deny or
delay development projects pending before the City Council . . . .”) (decision available only on
LEXIS).
These were just two of the many schemes charged in, and for which the jury heard
evidence in connection with, Count 1. Other schemes also involved post-McDonnell official acts,
such as hiring county employees and bribing a county domestic relations judge. The ruling in
McDonnell, to the extent that official acts were necessary to support a RICO conspiracy,
provides no basis for overturning Dimora’s conviction in Count 1.
There is no doubt that the Supreme Court’s decision in McDonnell changed the legal
landscape regarding the federal bribery statute and the concept of “official acts.” That ruling did
not, however, change the evidence offered at Dimora’s trial or the instructions given to Dimora’s
jury by this Court. Because the vast majority of the acts charged in the indictment, and proven by
the government at trial, established that Dimora engaged in conduct that constitutes official acts
in a post-McDonnell world, his convictions must stand. Those few acts that would no longer pass
muster under McDonnell would have been disregarded by a rational juror applying the Court’s
instructions. However, any possible error in charging the jury on the subject of “official acts,” to
the extent that the jury was not sufficiently charged, was harmless. The jury heard nearly six
weeks of testimony—in addition to Dimora’s own self-implicating words in tape-recorded
conversations—that established that he did so much more than set up meetings or place phone
calls. He repeatedly solicited and received bribes in exchange for official acts, and pressured
57

App. 80

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 58 of 65. PageID #: 33188

other public officials to take official action in furtherance of these bribery schemes. The jury
properly concluded that this conduct violated the Hobbs Act and constituted honest services
fraud. Accordingly, Dimora’s motion to set aside his convictions on this ground is DENIED. 20
VII.

EXCLUSION OF ETHICS REPORTS

According to Dimora, [“t]his Court also erred by excluding Mr. Dimora’s ethics reports,
and that error compounded the prejudice caused by the faulty jury instructions.” (Mot. at 32306.)
Because the Court finds that the jury instructions were not faulty and did not result in any
prejudice to Dimora, it need not address an issue that was thoroughly litigated on direct appeal.
See DuPont v. United States, 76 F.3d 108, 110 (6th Cir. 1996) (“A § 2255 motion may not be
used to relitigate an issue that was raised on appeal absent highly exceptional circumstances.”)
(quotation marks and citation omitted).
Even if the Court were willing to revisit this issue, however, Dimora would not be
entitled to relief. As the Sixth Circuit concluded, any possible error in excluding the reports was
harmless “in view of the considerable array of evidence against Dimora.” Dimora, 750 F.3d at
628-29 (noting that “the government produced overwhelming evidence against” Dimora, and
“one evidentiary mistake, if a mistake it was, in the context of all that happened at this 37-day
trial would not have made a difference to the jury”). In reaching this conclusion, the Sixth Circuit
reasoned that “the ethics reports would have done little to tip the scales against the
overwhelming weight of [the] evidence” in that “the reports do not contradict a single element of
[Dimora’s] public corruption convictions.” Id. at 629 (emphasis in original). Neither the passage

Likewise, because Dimora fails on his arguments under McDonnell, the Court need not consider the continued
validity of his convictions on the tax counts. (See Mot. at 32305 [“The tax counts depended entirely on the bribery
counts—if the things of value Mr. Dimora received were bribes, then he underreported his income and his tax
returns were false; if not, then his tax returns were accurate.”], record cites omitted.)
20

58

App. 81

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 59 of 65. PageID #: 33189

of time, nor the ruling in McDonnell, changes that result.
Moreover, the Sixth Circuit did not even reach many of this Court’s reasons for
excluding the evidence. In addition to hearsay concerns, this Court found that the ethics reports
were subject to exclusion under Fed. R. Evid. 403 because they actually implicated Dimora in
wrong-doing, would “open the door to evidence of ethics reporting requirements[,]” and “likely
cause confusion, requiring a mini-trial on the disclosure laws governing elected officials in the
State of Ohio.” (Doc. No. 930 (Memorandum Opinion & Order [“MOO”]) at 18911, record cites
omitted.) 21 The Sixth Circuit agreed that the ethics reports “would have hurt Dimora by opening
the door to evidence that would have done him no favors[,]” including the fact that many bribe
payers were never identified in the reports. 22 Dimora, 750 F.3d at 629 (emphasis in original).
Still, it indicated that it need not reach this Court’s Rule 403 analysis because of the weight and
depth of the evidence offered against Dimora. 23 Id. at 628. Because the reports would have been

The government notes that, had the ethics reports been admitted, it would have called the Director of the Ohio
Ethics Commission to testify to the deficiencies in Dimora’s reporting, including the fact “that all income from any
source that is reportable on a tax return, including bribery, should have been reported under the [report’s] income
section [instead of the gift section where Dimora inserted it].” (Opp’n at 32782, citing Doc. No. 1031, Tr. Jury Trial
Vol. 33, at 27285.) The Court found that this and other ethics testimony regarding the sufficiency of the reports
under Ohio law would have added length to an already lengthy trial, confused the jury, and even damaged Dimora.
(MOO at 18911-12.)
21

The Sixth Circuit underscored the fact that certain alleged bribers were “conspicuously absent from the list.
Where, for example, is Kevin Payne’s name? The evidence showed that he paid for Dimora’s use of limousine
services, that he covered the cost of prostitutes, and that he picked up the check at more than a few expensive
dinners. What of Gina Coppers? She paid for Dimora’s hotel room. A jury reading Dimora’s reports could only
conclude that he was indeed hiding things—and breaking Ohio disclosure laws in the process. See Ohio Rev. Code §
102.02. Excluding the reports was harmless error because including the reports would have been harmful.” Id.
(emphasis in original).
22

Adding to possible juror confusion, this Court observed that the reporting forms were made under penalty of
perjury and contained a provision that provided that the forms ensured transparency in the government, “increas[ing]
public awareness of potential conflicts and reassur[ing] Ohio citizens in the integrity of government.” (MOO at
18913, record cite omitted.”) This Court noted that “such a statement would have the effect of usurping the jury’s
province, by suggesting that the Ohio Ethics Commission had already determined that Dimora, by virtue of his
disclosure [however deficient or deceitful], lacked the intent to conceal the fraud.” (Id.) Given the inherent
limitations of this evidence, such a misleading statement would have confused the jury and unfairly prejudiced the
government.
59

23

App. 82

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 60 of 65. PageID #: 33190

unfairly prejudicial to the government (and, ironically, also to Dimora), and would have served
only to confuse the jury and unnecessarily extend the trial, they were properly excluded. This
evidentiary ruling, fully vetted on direct appeal, provides no basis for relief under 28 U.S.C. §
2255.
VIII.

MOTION TO AMEND

As the Court was in the process of finalizing and filing this Memorandum Opinion
resolving Dimora’s counseled § 2255 motion, the Sixth Circuit transferred to this Court’s docket
a pro se motion, filed by Dimora with the Sixth Circuit on July 12, 2018, for leave to file a
second or successive motion to vacate, set aside, or correct sentence under 28 U.S.C. § 2255. His
motion requests permission to raise entirely new and unrelated claims sounding in judicial bias
and prosecutorial misconduct. These claims are purportedly based upon Dimora’s reading of the
§ 2255 motions of two of co-conspirators, Gabor and Pumper, this Court’s rulings on those
motions, and what Dimora refers to as newly discovered evidence that he gleaned from reading
these other motions and rulings and reviewing documents recently produced by his trial
attorneys. (Affidavit of James C. Dimora ¶¶ 5, 8-9.) Because this Court had yet to issue its ruling
on Dimora’s initial motion, the Sixth Circuit held that Dimora did not need circuit authorization
to file his proposed § 2255 motion, and that he could “instead seek leave [from the district court]
to amend that motion to add the claims that he seeks to raise in his proposed § 2255 motion.”
Appended to what the Court will now treat as Dimora’s pro se motion to amend is
Dimora’s proposed amendment to his § 2255 motion. In it, Dimora essential adopts the
arguments made by Gabor that the district judge who briefly presided over certain preliminary

60

App. 83

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 61 of 65. PageID #: 33191

matters in this case, Kathleen O’Malley, was biased based on certain attenuated connections to
the underlying public corruption trials, and that the prosecutors that tried the case before the
undersigned engaged in prosecutorial misconduct. To these arguments, he adds certain facts, all
known to him at the time of trial and pertinent to the charges that were pending against him.
Also, adopting the arguments raised in co-conspirator Pumper’s motion, he adds additional
prosecutorial misconduct allegations, essentially arguing that the government’s attorneys
knowingly offered testimony from Pumper that was perjured and/or unreliable.
Because Dimora is represented by counsel—and this belated motion to amend was filed
pro se—the Court elects not to rule on it. “Sixth Circuit [case law] is clear that a criminal
defendant does not have a constitutional right to ‘hybrid representation.’” Miller v. United States,
561 F. App’x 485, 488 (6th Cir. 2014) (quoting United States v. Mosley, 810 F.2d 93, 98 (6th
Cir. 1987)). “A defendant has a constitutional right to be presented by counsel or to represent
himself during his criminal proceedings, but not both.” Id. (quoting Mosley, 810 F.2d at 97)
(emphasis in original). Likewise, “[a] habeas petition has neither a constitutional right nor a
statutory right to hybrid representation.” Id. at 489 (quoting 28 U.S.C. § 1654) (“In all courts of
the United States the parties may plead and conduct their own cases personally or by counsel[
.]”) (emphasis added by the court). “Hybrid representation is generally prohibited because it
increases the risk of undue delay, jury confusion, and conflicts as to trial strategy.” Id. at 488.
The decision of whether to consider such pleadings is left to the discretion of the trial or habeas
court. See id. at 489; see, e.g., Abela v. Heyns, No. 17-1342, 2017 WL 8727425, at *2 (6th Cir.
Oct. 12, 2017) (“Because [petitioner] was represented by counsel [during his habeas proceeding],
the trial court was not compelled to rule on his pro se discovery motions.”).
61

App. 84

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 62 of 65. PageID #: 33192

The Court finds that it would be especially inappropriate to permit Dimora to proceed in
a hybrid fashion and amend his motion at this late stage in this proceeding. His pro se motion to
amend was filed in the Sixth Circuit more than a year after Dimora filed his counseled motion to
vacate his sentence. In the interim, the Court granted requests for extensions of time and leave to
exceed page limit restrictions to ensure that the issues raised in the initial motion were fully
briefed. The result was comprehensive briefing that properly framed the issues. Additionally, the
Court has reviewed the factually intensive briefing prepared by counsel, as well as the
voluminous record relative to the issues raised by counsel, and, as previously noted, was
prepared to issue its ruling.
Moreover, even if the Court were to consider Dimora’s motion to amend on the merits
and pursuant to Federal Rule of Civil Procedure 15(a), it would be denied because it seeks leave
to raise claims that are both untimely and futile. Dimora has not identified any newly discovered
evidence that would rescue his proposed claims from the statutory requirement that he file within
one year of his judgment of conviction becoming final in 2014, pursuant to 28 U.S.C. §

62

App. 85

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 63 of 65. PageID #: 33193

2255(f)(1), (4). 24 Nor do these newly proposed claims relate back to the original motion pursuant
to Fed. R. Civ. P. 15(c)(2) because the new claims raise different theories for relief that are
supported by facts that differ entirely from those set forth and relied upon in the original
pleading. See Mayle v. Felix, 545 U.S. 644, 650, 125 S. Ct. 2562, 162 L. Ed. 2d 582 (2005) (“An
amended habeas petition, we hold, does not relate back (and thereby escape AEDPA’s one-year
time limit) when it asserts a new ground for relief supported by facts that differ in both time and
type from those the original pleading set forth.”)
Further, it would serve no purpose for the Court to devote judicial resources to revisiting
claims that the Court has already determined to be entirely devoid of merit. With respect to
Gabor’s claim of judicial bias, the Court held that his unsubstantiated “conjecture, rank
speculation, and hearsay (even double hearsay) statements” failed to establish the kind of
pecuniary interest necessary to overcome the presumption against judicial bias. (Doc. No. 1167
at 32337.) More to the point, the Court indicated that it did not even need to consider Gabor’s
“evidence” of Judge O’Malley’s purported bias because the “undersigned—not Judge
O’Malley—presided over all substantive phases” of the trial, and Gabor did not allege that the
undersigned had any impermissible ties to the underlying investigation. He, therefore, received

The facts Dimora identifies in his proposed amendment, such as the fact that he supported Judge O’Malley’s
appointment to the federal bench and that his son once served as a law clerk for Judge O’Malley’s husband’s law
firm, were known to Dimora at the time of his trial. Further, the documents he claims he recently received from trial
counsel—a trial transcript from a 2011 hearing and a 2011 newspaper article—involved a trial proceeding in a
related case of which he was a named defendant and had first-hand information. Instead, Dimora appears to be
arguing that he did not realize that he could assert judicial bias and prosecutorial misconduct claims until he read his
co-conspirator’s § 2255 motions. But the Sixth Circuit has made clear that § 2255(f)(4) addresses the discovery of
new facts, not the recognition of their legal importance. Phillips v. United States, 734 F.3d 573, 580 (6th Cir. 2013)
(Section 2255(f)(4) is “directed at the discovery of new facts, not newly discovered law”); see, e.g., Alexander v.
United States, No. 11-20180, 2016 WL 6158961, at *6 (E.D. Mich. Oct. 24, 2016) (applying Phillips and observing
that “Petitioner appears to be conflating his ability to discover the facts underlying his ineffective state counsel
claim, with his ability to recognize the legal significance of such facts”); Woodley v. United States, No. 04-80335,
2016 WL 4701464, at *4 (E.D. Mich. Sept. 8, 2016) (“[D]elayed realization of the precise manner in which the
sentencing court allegedly misapplied the Sentencing Guidelines in determining his sentence does not qualify as a
63

24

App. 86

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 64 of 65. PageID #: 33194

“precisely what the Due Process Clause requires—a fair trial before a fair tribunal.” (Id. at
32334, emphasis added.) The same holds true for Gabor’s co-defendant, Dimora. 25 Similarly, the
Court would find, once again, that the unsubstantiated and attenuated connections between
certain co-conspirators and family members of the prosecution would not have required the
prosecutors to withdraw from the case or supported a new trial. 26 (See id. at 32340-45; see also
Doc. No. 1192 (Sixth Circuit Order Denying Appeal from Refusal to Issue a Certificate of
Appealability) at 33012 [“The connections that support Gabor’s claim that the AUSAs on his
case had impermissible conflicts of interest are so attenuated to the issues at trial that no
reasonable jurist could conclude that the alleged conflicts affected the outcome of his trial.”].)
Accordingly, it would be futile to allow an untimely amendment to Dimora’s § 2255 motion.

discovery of new ‘facts’ that would warrant a renewed one-year period under § 2255(f)(4).”).
Dimora’s argument that Judge O’Malley’s involvement in his case “was far deeper than the involvement she had
in Gabor’s case” is without merit. While he cites Judge O’Malley’s decision to grant his motion for appointment of
counsel, Dimora ultimately elected to proceed to trial with retained counsel. This alleged involvement in a
preliminary matter had no bearing on the outcome of the trial before the undersigned.
25

Likewise, the Court would, once again, reject the arguments originally raised by Pumper in his § 2255 motion that
he was coerced by the government into testifying and was under the influence of drugs at his own sentencing, as
these allegations were refuted by the record. (United States v. Pumper, Case No. 1:09-cr-00317, Doc. No. 40 at 595
[citing Blackedge v. Allison, 431 U.S. 63, 74, 97 S. Ct. 1621, 52 L. Ed. 2d 136 (1977) (representations of the
defendant, his lawyer, the prosecutor, and the judge at the time of sentencing “constitute a formidable barrier in any
subsequent collateral proceeding”)].)
64
26

App. 87

Case: 1:10-cr-00387-SL Doc #: 1196 Filed: 10/22/18 65 of 65. PageID #: 33195

IX. CONCLUSION
For all of the foregoing reasons, Dimora’s motion to vacate, set aside, or correct his
sentence, pursuant to 28 U.S.C. § 2255, is DENIED.
IT IS SO ORDERED.

Dated: October 22, 2018

HONORABLE SARA LIOI
UNITED STATES DISTRICT JUDGE

65

App. 88

Case: 18-4260

Document: 61-1

Filed: 12/29/2020

Page: 1

No. 18-4260
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JAMES C. DIMORA,

FILED

Dec 29, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

(1 of 2)

ORDER

BEFORE: MERRITT, THAPAR, and LARSEN, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied. Judge Merritt would grant rehearing for the reasons
stated in his dissent.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

App. 89

Case: 1:10-cr-00387-SL Doc #: 735-1 Filed: 03/07/12 21 of 87. PageID #: 16986

LAW OF BRIBERY AND KICKBACKS

Many of the Counts charged against both defendant Dimora and defendant Gabor involve
alleged bribery or kickbacks. I will now instruct you on some of the general principles of bribery
and kickbacks law. You must apply these principles when you consider the following crimes:
(1) Bribery Concerning Programs Receiving Federal Funds;
(2) Conspiracy to Commit Bribery Concerning Programs Receiving Federal Funds;
(3) Hobbs Act Extortion;
(4) Conspiracy to Commit Hobbs Act Extortion
(5) Conspiracy to Commit Honest Services Wire Fraud;
(6) Honest Services Mail Fraud; and
(7) Conspiracy to Commit Honest Services Mail Fraud.
Bribery and kickbacks involve the exchange of a thing or things of value for official
action by a public official, in other words, a quid pro quo (a Latin phrase meaning "this for
that" or "these for those"). Bribery and kickbacks also include offers and solicitations of things
of value in exchange for official action. That is, for the payor, bribery and kickbacks include
the offer or agreement to provide a thing of value to a public official in exchange for official
action, whether or not the public official actually accepts the thing of value or agrees to
perform the official action. For the public official, bribery and kickbacks include the public
official's solicitation or agreement to accept a thing of value in exchange for official action,
whether or not the payor actually provides the thing of value, and whether or not the public
official ultimately performs the requested official action or intends to do so.
The public official and the payor need not state the quid pro quo in express terms, for
otherwise the law's effect could be frustrated by knowing winks and nods. Rather, the intent to

21

App. 90

Case: 1:10-cr-00387-SL Doc #: 735-1 Filed: 03/07/12 22 of 87. PageID #: 16987

exchange may be established by circumstantial evidence, based upon the defendant's words,
conduct, acts, and all the surrounding circumstances disclosed by the evidence, as well as the
rational or logical inferences that may be drawn from these things.
Bribery and kickbacks require the intent to effect an exchange of money or other thing
of value in return for official action, but each payment need not be correlated with a specific
official act. The requirement that there be payment of a thing of value in return for the
performance of an official act is satisfied so long as the evidence shows a "course of conduct"
of things of value flowing to a public official in exchange for a pattern of official actions
favorable to the donor. In other words, the intended exchange in bribery and kickbacks can be
"this for these" or "these for these," not just "this for that." Further, it is not necessary for the
government to prove that the defendant intended to perform a set number of official acts in
return for the payments. Thus, all that must be shown is that payments were made with the
intent of securing a specific type of official action in return. For example, payments may be
made with the intent to retain the official's services on an "as needed" basis, so that whenever
the opportunity presents itself the public official will take specific official actions on the giver's
behalf. However, bribery or kickbacks are not proved if the benefit is intended to be, and is
accepted as, simply an effort to buy favor or generalized goodwill from a public official who
either has been, is, or may be at some unknown, unspecified later time, in a position to act
favorably on the giver's interests.

It is not a defense to claim that a public official would have lawfully performed the
official action in question even without having accepted a thing of value. In other words, it is
not a defense that the offer or promise of anything of value was made to the public official in
exchange for an official action that is actually lawful, desirable, or even beneficial to the

22

App. 91

Case: 1:10-cr-00387-SL Doc #: 735-1 Filed: 03/07/12 23 of 87. PageID #: 16988

public. The law of bribery and kickbacks is not concerned with the wisdom or results of the
public official's decisions, but rather with the manner in which the public official makes his
decisions. However, you may consider the official action's lawfulness, desirability, or benefit
to the public welfare, just as you would any other circumstances in the case, as it may bear
upon the intent of a defendant in accepting the thing of value.
Also, it is not necessary for the government to prove that the scheme actually
succeeded, or that any official act was actually taken by the public official in the course of the
scheme. What the government must prove is the intent to effect an exchange of money or other
thing of value in return for official action.
Also, because people rarely act for a single purpose, the giver need not have offered or
provided the thing of value only in exchange for specific official actions, and the public official
need not have solicited or accepted the thing of value only in exchange for the performance of
official action. If you find beyond a reasonable doubt that a defendant gave, offered, or
provided a thing of value in exchange for the performance of official action, then it makes no
difference that the giver may also have had another lawful motive, such as friendship, for
providing a thing of value. Likewise, if you find beyond a reasonable doubt that a defendant
solicited or received, as a public official, a thing of value in exchange for the performance of
official action, then it makes no difference that the public official may also have had another
lawful motive for soliciting or receiving the thing of value. However, property given with the
sole motive of cultivating friendship is not a bribe.
The term "official act" includes any decision or action on any question, matter, cause,
suit, proceeding or controversy, which may at any time be pending, or which may by law be
brought before any public official, in such official's official capacity, or in such official's place

23

App. 92

Case: 1:10-cr-00387-SL Doc #: 735-1 Filed: 03/07/12 24 of 87. PageID #: 16989

of trust or profit. Official acts include the decisions or actions generally expected of the public
official. In addition, "official action" includes the exercise of both formal official influence
(such as a public official's votes) and informal official influence (such as a public official's
influence on other public officials). The term "'official act" does not include actions taken in a
personal or non-official capacity, such as actions taken as a political party leader.
"Anything of value" includes things possessing intrinsic value, whether tangible or
intangible, that the person giving or offe~ing or the person soliciting or receiving considers to
be worth something. This includes a sum of money, shares of stock, percentage of revenue,
commissions, favorable treatment, or a job or job offer. It also includes things of value given
not to the public official but to a family member or third party for the benefit of the public
official and at the official's knowing direction.

24
App. 93

Case: 1:10-cr-00387-SL Doc #: 735-1 Filed: 03/07/12 25 of 87. PageID #: 16990

BRIBERY CONCERNING PROGRAMS RECEIVING FEDERAL FUNDS
Count

5
6

Charge
18 U.S.C. §§ 666(a)(l)(B) and (2):
Bribery Concerning Programs Receiving
Federal Funds
18 U.S.C. §§ 666(a)(l )(B) and (2):
Bribery Concerning Programs Receiving
Federal Funds

Defendant Person/Entity Indictment
Paee(s)
Involved
Cbar2ed
48-49
Dimora
Kleem
Dimora

Kleem

49-50

18

18 U .S.C. §§ 666(a)(l )(B) and (2):
Bribery Concerning Programs Receiving
Federal Funds

Dimora

Pumper&DAS

95

19

18 U.S.C. §§ 666(a)(l )(B) and (2):
Bribery Concerning Programs Receiving
Federal Funds

Dimora

Pumper&
GreenSource

96

Defendant Dimora is charged in Counts 5, 6, 18, and 19 with committing the substantive
offense of Bribery Concerning Programs Receiving Federal Funds. You must consider each of
these Counts independently to determine whether the elements of Bribery Concerning Programs
Receiving Federal Funds are met as to James Dimora and that Count.
With respect to Counts 5, 6, 18, and 19, the Indictment reads as follows:

[Read Counts 5, 6, 18, and 19]
Though it is not necessary that the government prove all of the details alleged concerning
the precise nature and purpose of the scheme in question, to find James Dimora guilty of Bribery
Concerning Programs Receiving Federal Funds, the government must prove each and every one
of the following elements beyond a reasonable doubt:

First, that at the time alleged in the particular Count of the Indictment you are
considering, James Dimora was an agent of Cuyahoga County;
Second, that Cuyahoga County received federal benefits in excess of $10,000 in a
one-year period identified in the particular Count;
25

App. 94

Case: 1:10-cr-00387-SL Doc #: 735-1 Filed: 03/07/12 26 of 87. PageID #: 16991

Third, that James Dimora solicited, demanded, accepted, or agreed to accept
something of value from the person or entity(ies) identified in the specific Count;
Fourth, that James Dimora did so corruptly with the intent to be influenced or
rewarded in connection with the business, a transaction, or series of transactions of
Cuyahoga County identified in the specific Count; and
Fifth, that the value of the business, transaction, or series of transactions identified
in the specific Count and to which the payment related was at least $5,000.
With respect to the second element, the Court reminds you that the parties have stipulated
that Cuyahoga County received federal benefits in excess of $10,000 for the eight one-year
periods identified in the stipulation section on page 5 at paragraph 8 of these instructions.

For purposes of these Bribery Concerning Programs Receiving Federal Funds
instructions, to act "corruptly" means to act voluntarily, deliberately and dishonestly to either
accomplish an unlawful end or result, or to use an unlawful method or means to accomplish an
otherwise lawful end or result.
An "agent" is a person authorized to act on behalf of another person, organization or
government. Employees, managers, and representatives are all agents of the government with
which they are associated.

If you are convinced that the government has proved all of the elements against James
Dimora as to any Bribery Concerning Programs Receiving Federal Funds Count, say so by
returning a guilty verdict on that Count. If you have a reasonable doubt about any one of the
elements, then you must find James Dimora not guilty of that Count.

26

App. 95

18 USCS § 666
Current through Public Law 116-259, approved December 23, 2020. Some sections may be more current.

United States Code Service > TITLE 18. CRIMES AND CRIMINAL PROCEDURE (§§ 1 — 6005) > Part
I. Crimes (Chs. 1 — 123) > CH APTER 31. Embezzlement and theft (§§ 641 — 670)

§ 666. Theft or bribery concerning programs receiving Federal funds
(a) Whoever, if the circumstance described in subsection (b) of this section exists—
(1) being an agent of an organization, or of a State, local, or Indian tribal government, or any
agency thereof—
(A) embezzles, steals, obtains by fraud, or otherwise without authority knowingly converts to
the use of any person other than the rightful owner or intentionally misapplies, property
that—
(i) is valued at $5,000 or more, and
(ii) is owned by, or is under the care, custody, or control of such organization,
government, or agency; or
(B) corruptly solicits or demands for the benefit of any person, or accepts or agrees to accept,
anything of value from any person, intending to be influenced or rewarded in connection with
any business, transaction, or series of transactions of such organization, government, or
agency involving any thing of value of $5,000 or more; or
(2) corruptly gives, offers, or agrees to give anything of value to any person, with intent to
influence or reward an agent of an organization or of a State, local or Indian tribal government, or
any agency thereof, in connection with any business, transaction, or series of transactions of such
organization, government, or agency involving anything of value of $5,000 or more;
shall be fined under this title, imprisoned not more than 10 years, or both.
(b) The circumstance referred to in subsection (a) of this section is that the organization,
government, or agency receives, in any one year period, benefits in excess of $10,000 under a Federal
program involving a grant, contract, subsidy, loan, guarantee, insurance, or other form of Federal
assistance.
(c) This section does not apply to bona fide salary, wages, fees, or other compensation paid, or
expenses paid or reimbursed, in the usual course of business.
(d) As used in this section—
(1) the term “agent” means a person authorized to act on behalf of another person or a
government and, in the case of an organization or government, includes a servant or employee,
and a partner, director, officer, manager, and representative;
(2) the term “government agency” means a subdivision of the executive, legislative, judicial, or
other branch of government, including a department, independent establishment, commission,
administration, authority, board, and bureau, and a corporation or other legal entity established,
App. 96

Page 2 of 2
18 USCS § 666

and subject to control, by a government or governments for the execution of a governmental or
intergovernmental program;
(3) the term “local” means of or pertaining to a political subdivision within a State;
(4) the term “State” includes a State of the United States, the District of Columbia, and any
commonwealth, territory, or possession of the United States; and
(5) the term “in any one-year period” means a continuous period that commences no earlier than
twelve months before the commission of the offense or that ends no later than twelve months
after the commission of the offense. Such period may include time both before and after the
commission of the offense.

History
HISTORY:
Added Oct. 12, 1984, P. L. 98-473, Title II, Ch XI, Part C, § 1104(a), 98 Stat. 2143; Nov. 10, 1986, P. L. 99-646, § 59(a), 100 Stat.
3612; Nov. 29, 1990, P. L. 101-647, Title XII, §§ 1205(d), 1208, 104 Stat. 4831, 4832; Sept. 13, 1994, P. L. 103-322, Title XXXIII, §
330003(c), 108 Stat. 2140.

United States Code Service
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

App. 97

18 USCS § 1951, Part 1 of 2
Current through Public Law 116-259, approved December 23, 2020. Some sections may be more current.

United States Code Service > TITLE 18. CRIMES AND CRIMINAL PROCEDURE (§§ 1 — 6005) > Part
I. Crimes (Chs. 1 — 123) > CH APTER 95. Racketeering (§§ 1951 — 1960)

§ 1951. Interference with commerce by threats or violence
(a) Whoever in any way or degree obstructs, delays, or affects commerce or the movement of any
article or commodity in commerce, by robbery or extortion or attempts or conspires so to do, or
commits or threatens physical violence to any person or property in furtherance of a plan or purpose
to do anything in violation of this section shall be fined under this title or imprisoned not more than
twenty years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful taking or obtaining of personal property from the
person or in the presence of another, against his will, by means of actual or threatened force, or
violence, or fear of injury, immediate or future, to his person or property, or property in his
custody or possession, or the person or property of a relative or member of his family or of
anyone in his company at the time of the taking or obtaining.
(2) The term “extortion” means the obtaining of property from another, with his consent,
induced by wrongful use of actual or threatened force, violence, or fear, or under color of official
right.
(3) The term “commerce” means commerce within the District of Columbia, or any Territory or
Possession of the United States; all commerce between any point in a State, Territory, Possession,
or the District of Columbia and any point outside thereof; all commerce between points within
the same State through any place outside such State; and all other commerce over which the
United States has jurisdiction.
(c) This section shall not be construed to repeal, modify or affect section 17 of Title 15 [15 USCS §
17], sections 52, 101–115, 151–166 of Title 29 or sections 151–188 of Title 45 [45 USCS §§ 151–188].

History
HISTORY:
Act June 25, 1948, ch 645, § 1, 62 Stat. 793; Sept. 13, 1994, P. L. 103-322, Title XXXIII, § 330016(1)(L), 108 Stat. 2147.

United States Code Service
Copyright © 2021 Matthew Bender & Company, Inc.
a member of the LexisNexis Group (TM)
All rights reserved. All rights reserved.

End of Document

App. 98

